<html>
<title> - [H.A.S.C. No. 115-51] Fiscal Year 2018 Priorities For Nuclear Forces and Atomic Energy Defense Activity</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                 
                         [H.A.S.C. No. 115-51]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                    FISCAL YEAR 2018 PRIORITIES FOR

          NUCLEAR FORCES AND ATOMIC ENERGY DEFENSE ACTIVITIES

                               __________

                              HEARING HELD
                              MAY 25, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-873                   WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0a1d022d0e181e190508011d430e020043">[email&#160;protected]</a>                                      
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona, Vice Chair    JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               SUSAN A. DAVIS, California
DUNCAN HUNTER, California            RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            BETO O'ROURKE, Texas
MICHAEL R. TURNER, Ohio              DONALD NORCROSS, New Jersey
MIKE COFFMAN, Colorado               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               RO KHANNA, California
SAM GRAVES, Missouri
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                             
                             
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Benedict, VADM Terry, USN, Director, Navy Strategic Systems 
  Program........................................................     6
Cange, Susan M., Acting Assistant Secretary for Environmental 
  Management, Department of Energy...............................     8
Klotz, Lt Gen Frank G., USAF (Ret.), Administrator, National 
  Nuclear Security Administration................................     3
Rand, Gen Robin, USAF, Commander, Air Force Global Strike Command     6
Soofer, Dr. Robert, Deputy Assistant Secretary of Defense for 
  Nuclear and Missile Defense Policy, Department of Defense......     4
Zangardi, Dr. John A., Acting Chief Information Officer, 
  Department of Defense..........................................     7

                                APPENDIX

Prepared Statements:

    Benedict, VADM Terry.........................................    69
    Cange, Susan M...............................................    83
    Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
      Member, Subcommittee on Strategic Forces...................    34
    Klotz, Lt Gen Frank G........................................    35
    Rand, Gen Robin..............................................    54
    Rogers, Hon. Mike............................................    31
    Soofer, Dr. Robert...........................................    47
    Zangardi, Dr. John A.........................................    79

Documents Submitted for the Record:

    Letter from Secretary of Energy Moniz to the Director of the 
      Office of Management and Budget............................    95

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................   108
    Mr. Franks...................................................   108
    Mr. Garamendi................................................   111
    Mr. Rogers...................................................   101
  
  
  FISCAL YEAR 2018 PRIORITIES FOR NUCLEAR FORCES AND ATOMIC ENERGY 
                           DEFENSE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                            Washington, DC, Thursday, May 25, 2017.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good morning. The subcommittee will come to 
order. I want to welcome you to our hearing on ``Fiscal Year 
2018 Priorities for Nuclear Forces and Atomic Energy Defense 
Activities.''
    I want to thank our witnesses for being here today and for 
your service to our Nation. In uniform or out, your service to 
the American people is greatly appreciated.
    We have a full witness panel today because, due to the 
compressed schedule for the budget request and defense 
authorization bill, we are going to attempt to cover the 
waterfront on all things nuclear. We have the Honorable Frank 
Klotz, Administrator, Under Secretary for Nuclear Security; Dr. 
Robert Soofer, Deputy Assistant Secretary of Defense for 
Nuclear Defense Policy; General Robin Rand, Commander, Air 
Force Global Strike Command; Vice Admiral Terry Benedict, 
Director, Navy Strategic Systems Programs; and I know I am 
going to butcher this one up, but Dr. John Zangardi--is that 
all right--Acting Chief Information Officer at the Department 
of Defense; and Ms. Susan Cange--did I pronounce that right--
Acting Assistant Secretary of Energy for Environmental 
Management.
    Two and a half months ago, the Vice Chairman of the Joint 
Chiefs of Staff, General Selva, testified before our full 
committee that, quote: ``There is no higher priority for the 
Joint Force than fielding all the components of an effective 
nuclear deterrent, and we are emphasizing the nuclear mission 
over all other modernization programs when faced with that 
choice. We in the Joint Force put our nuclear deterrent as the 
number one priority for modernization and recapitalization,'' 
close quote.
    This priority has now been clearly stated by three 
successive Secretaries of Defense: Secretary Hagel, Secretary 
Carter, and Secretary Mattis. As my friend and ranking member 
has repeatedly pointed out, this subcommittee agrees with that 
prioritization on a bipartisan basis, and I am pleased to say 
that the fiscal year 2018 budget request put forward by the 
Trump administration 2 days ago reinforces that priority. This 
is good news.
    As a Nation, we need to put our money where our mouths are. 
This committee played a key role in building the current broad 
bipartisan agreement on the importance of the U.S. nuclear 
deterrent and the urgent need to carry out the full nuclear 
modernization programs put forth by the Obama administration.
    Reflecting on the budget request, let's be clear about one 
thing. The billion dollar increase for NNSA's [National Nuclear 
Security Administration's] nuclear weapons activities goes a 
long way but does not fully fill the gap identified by 
Secretary of Energy Ernie Moniz in his letter to the OMB 
[Office of Management and Budget] Director in 2015.
    The Secretary said there was over a billion dollar gap 
between the program of record in fiscal year 2018 and the 
funding allocated. We are still several hundred million dollars 
short here. As the Trump administration embarks on its Nuclear 
Posture Review, in which several of our witnesses are 
intimately involved, we will take stock today of all the 
priorities, policies, and programs related to nuclear 
deterrence and nuclear security more broadly.
    Let me briefly highlight two. Of particular concern to this 
subcommittee are the nuclear advances made by foreign countries 
and how those impact our own deterrent. As we heard from the 
Defense Science Board earlier this year, quote, ``Nuclear 
weapons are a steadily evolving threat in both new and familiar 
directions,'' close quote. We must understand how the threat is 
evolving and anticipate what must be done to compensate. The 
U.S. focus in recent years has been on downplaying the utility 
of nuclear weapons, but most other nuclear powers have not 
downplayed that threat. The U.S. will ensure its nuclear 
deterrent is robust and credible against all potential threats 
today and for the long term.
    Another longstanding concern of this committee has been the 
state of the infrastructure within the NNSA enterprise. This 
committee has had several hearings on the topic in the past 
year, and I am pleased that the budget request provides 
significantly additional funding here. We will take a look at 
the projects that are being proposed and make sure they are 
truly buying down the massive backlog of deferred maintenance 
and repair needs. We will also look to see what authorities and 
processes can be provided or streamlined to ensure we are doing 
this smartly, effectively, and efficiently.
    In closing, let me revisit something that General Hyten, 
Commander of the U.S. Strategic Command, said at our hearing 
back in March, quote: ``At a time when others continue to 
modernize and expand strategic capabilities, nearly all 
elements of the nuclear enterprise, our nuclear delivery 
systems, weapons stockpile, NC3 [nuclear command, control, and 
communications], and other critical infrastructure are 
operating well beyond their expected service life''--``planned 
sustainment and modernization activities must be completed on 
schedule, as a delay will impact the execution of our strategic 
deterrence mission and unacceptably degrade our ability, and 
ultimately our credibility, to deter and assure,'' close quote.
    For our number one priority defense mission, this is a 
sobering reminder of the tremendously important job facing 
these witnesses and this subcommittee, so let's get to work.
    I want to thank our witnesses for being here, and I look 
forward to our discussions.
    With that, let me turn to my friend, the ranking member 
from Tennessee, Mr. Jim Cooper, for any opening statement he 
may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 31.]
    Mr. Cooper. Thank you so much, Mr. Chairman.
    I too want to welcome the witnesses, and in order to save 
time, I would ask unanimous consent that my opening statement 
be made part of the record. Thank you.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 34.]
    Mr. Rogers. One of the many reasons I like him: He is short 
and to the point.
    All right. We are going to be called for votes in about an 
hour. So, if the witnesses could, your full opening statement 
will be submitted for the record. If you can summarize in about 
3 minutes, then we will get to questions more rapidly.
    General Klotz, you are recognized.

STATEMENT OF LT GEN FRANK G. KLOTZ, USAF (RET.), ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    General Klotz. Thank you, Mr. Chairman. I will summarize, 
hopefully at 3 minutes. Chairman Rogers, Ranking Member Cooper, 
and other members of the subcommittee, thank you for the 
opportunity to present the President's fiscal year 2018 budget 
request for the Department of Energy's National Nuclear 
Security Administration. We value this committee's strong 
support for the three pillars of NNSA's mission: the nuclear 
weapons stockpile, nuclear threat reduction, and Naval 
Reactors. Our budget request, which comprises approximately 
half of the DOE [Department of Energy] budget, is $13.9 
billion. This represents an increase, as you pointed out, of 
nearly $1 billion, or 7.8 percent, over the fiscal year 2017 
omnibus level.
    This budget request is vital to ensuring that the U.S. 
nuclear force remains modern, robust, flexible, resilient, 
ready, and appropriately tailored to 21st century threats, and 
to reassure our allies. It also is indicative of the strong 
support of the administration for the mission and the people of 
the National Nuclear Security Administration.
    NNSA's fiscal year 2018 budget request for the weapons 
activity appropriation is $10.2 billion, an increase of nearly 
$1 billion, or 10.8 percent, over the fiscal year 2017 omnibus 
level. This increase is needed to both meet our current life 
extension program commitments and to modernize our research and 
production infrastructure so we are positioned to address 
future requirements and future challenges.
    The 2018 budget request also includes $1.8 billion for the 
defense nuclear nonproliferation account, which is consistent 
with the funding level in the fiscal year 2017 omnibus. This 
appropriation continues NNSA's critical and far-reaching 
mission to prevent, counter, and to respond to nuclear threats.
    The request for our third appropriations, the Naval 
Reactors program, is nearly $1.5 billion. This represents an 
increase of $60 million, or 4.2 percent, above the fiscal year 
2017 omnibus level. Not only does the requested funding support 
today's operational fleet, it enables Naval Reactors to deliver 
tomorrow's fleet.
    Our budget request for the fourth and final appropriations 
account, Federal salaries and expenses, is $418 million, an 
increase of $31 million, or 8.1 percent, over the fiscal year 
2017 omnibus level. The request supports recruiting, training, 
and retaining the highly skilled Federal workforce essential to 
achieving success in technically complex 21st century national 
security missions.
    In closing, our fiscal year 2018 budget request reflects 
NNSA's motto: ``Mission first, people always.'' It accounts for 
the significant tempo of operations at NNSA which in many ways 
has reached a level unseen since the Cold War. It includes long 
overdue investments to repair and replace infrastructure at our 
national laboratories and production plants, and it provides 
modern and more efficient work space for our highly talented 
scientific, engineering, and professional workforce.
    Thank you for the opportunity to appear before you today, 
sir, and I look forward to answering any questions the 
subcommittee may have.
    [The prepared statement of General Klotz can be found in 
the Appendix on page 35.]
    Mr. Rogers. Thank you, General.
    Dr. Soofer, you are recognized for the first of many 
occasions before this committee, I am sure.

 STATEMENT OF DR. ROBERT SOOFER, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR NUCLEAR AND MISSILE DEFENSE POLICY, DEPARTMENT OF 
                            DEFENSE

    Dr. Soofer. Thank you, Chairman Rogers, Ranking Member 
Cooper, and distinguished members of the committee. Thank you 
for the opportunity to testify on the President's fiscal year 
2018 budget request for nuclear forces.
    The President directed the Department of Defense to conduct 
a comprehensive Nuclear Posture Review [NPR], and we expect to 
complete it by the end of this calendar year. I will not 
prejudge the outcome of the NPR but will outline some of the 
challenges and questions that we face.
    For decades, U.S. nuclear forces have provided the ultimate 
deterrent against nuclear attacks on the United States and our 
allies. Nuclear weapons remain a foundational element of U.S. 
strategy for deterring strategic attacks and large-scale war 
and for assuring U.S. allies. Effective deterrence requires a 
deliberate strategy and forces that are structured and postured 
to support that strategy within the existing security 
environment. Strategy, forces, and posture must also be 
flexible enough to maintain stability while adjusting to both 
gradual and rapid technological and geopolitical changes.
    Recent years have, indeed, brought changes that U.S. policy 
must address. Russia has undertaken aggressive actions against 
its neighbors and threatened the United States and its allies. 
It has elevated strategies for nuclear first use. It is 
violating the landmark Intermediate-Range Nuclear Forces Treaty 
and is modernizing a large and diverse nonstrategic nuclear 
weapons force.
    In the Asia-Pacific, China's increased assertiveness 
suggests a desire to dominate that region. North Korea's 
leadership has demonstrated a willingness to accept economic 
countermeasures and international isolation in order to advance 
its nuclear capability and develop ballistic missiles able to 
strike the United States homeland as well our allies in the 
region.
    The United States remains committed to ensuring that Iran 
never acquires a nuclear weapon. As the administration conducts 
its policy review of the Joint Comprehensive Plan of Action 
[JCPOA], we will continue to meet our commitments under the 
deal. Iran continues its ballistic missile program, which is 
outside of the JCPOA.
    It is against this backdrop that the President directed DOD 
[Department of Defense] to ensure that the U.S. nuclear 
deterrent is modern, robust, flexible, resilient, ready, and 
appropriately tailored to deter 21st century threats. Each of 
these characteristics contributes to the effectiveness of our 
deterrent strategy.
    As we conduct the NPR, Secretary Mattis has directed that 
we continue with the existing program of record for 
recapitalizing our aging nuclear forces. After decades of 
deferred modernization, replacement programs must proceed 
without further delay if we are to retain existing deterrent 
capabilities.
    DOD expects nuclear recapitalization costs to total 
approximately $230 billion to $290 billion over more than two 
decades. This includes the total cost of strategic delivery 
systems that have a nuclear-only mission and a portion of the 
B-21 bomber, which will have both conventional and nuclear 
roles. It also includes modernizing nuclear command and control 
and communication systems.
    During this coming period of increased spending for 
replacement programs, nuclear forces will remain a small 
fraction of the DOD budget with annual funding levels, 
including sustainment and operations, projected to range from 
approximately 3 percent to 6 percent of total defense spending. 
The President's budget request for fiscal year 2018 fully funds 
DOD nuclear recapitalization programs and provides for nuclear 
force sustainment and operations. It also adds more than $3 
billion across the Future Years Defense Plan relative to the 
previous year's request to continue improving the health of the 
DOD nuclear enterprise. These investments demonstrate the 
President's commitment to nuclear deterrence and national 
defense.
    The critical mission of ensuring an effective nuclear 
deterrent is the highest priority mission of the Department of 
Defense and one it shares with the Department of Energy and the 
Congress, and we look forward to continuing to work together in 
faithfully and responsively fulfilling this mission. Thank you 
again for the opportunity to testify. I look forward to your 
questions.
    [The prepared statement of Dr. Soofer can be found in the 
Appendix on page 47.]
    Mr. Rogers. Thank you, Dr. Soofer.
    General Rand, you are recognized.

STATEMENT OF GEN ROBIN RAND, USAF, COMMANDER, AIR FORCE GLOBAL 
                         STRIKE COMMAND

    General Rand. Chairman Rogers, Ranking Member Cooper, and 
distinguished members of the subcommittee, thank you for 
allowing me to appear before you today to represent the men and 
women of Air Force Global Strike Command. I have testified 
multiple times for the subcommittee, and I am looking forward 
to speaking about the progress and the changes that have taken 
place in our command since our last meeting in July of 2016. I 
am happy to provide my inputs and answer any questions on the 
Ground-Based Strategic Deterrent, Long-Range Standoff Weapon 
and the B-21 Raider, infrastructure requirements, nuclear 
command and control and communication systems, and other 
programs within the Air Force Global Strike.
    Fiscal constraints, while posing planning challenges, do 
not alter the national security landscape or the intent of 
competitors and adversaries, nor do they diminish the enduring 
value of long-range strategic forces to our Nation.
    Mr. Chairman, and subcommittee members, I want to thank you 
for your dedication to our great Nation and the opportunity to 
appear before the committee to highlight the need for 
modernization and efforts across Air Force Global Strike 
Command. I look forward to your questions.
    [The prepared statement of General Rand can be found in the 
Appendix on page 54.]
    Mr. Rogers. That was a record. Like 1 minute. Awesome.
    Admiral Benedict, you are recognized.

STATEMENT OF VADM TERRY BENEDICT, USN, DIRECTOR, NAVY STRATEGIC 
                        SYSTEMS PROGRAM

    Admiral Benedict. Thank you, sir. Chairman Rogers, Ranking 
Member Cooper, distinguished members of the committee, thank 
you for the opportunity to testify here today representing the 
men and women of our Navy's Strategic Systems Programs [SSP].
    I would like to briefly address the long-term sustainment 
of the sea-based leg of the triad. While our current life-
extension efforts will sustain the D5 [Trident missile] system 
until the 2040s, the Navy is already beginning to evaluate 
options to maintain a credible and effective strategic weapons 
system to the end of the Columbia-class service life in the 
2080s.
    At SSP, we are looking long term and across the spectrum, 
from our workforce and infrastructure to our industry partners 
and geographic footprint.
    Thank you for the opportunity to testify here today about 
the sea-based leg of the triad. I am pleased to answer your 
questions at this time.
    [The prepared statement of Admiral Benedict can be found in 
the Appendix on page 69.]
    Mr. Rogers. He beat you by 10 seconds, General. I am sorry. 
They won't beat Cooper.
    Dr. Zangardi, you are recognized.

  STATEMENT OF DR. JOHN A. ZANGARDI, ACTING CHIEF INFORMATION 
                 OFFICER, DEPARTMENT OF DEFENSE

    Dr. Zangardi. Good morning, Mr. Chairman, Ranking Member, 
and distinguished members of the subcommittee. Thank you for 
this opportunity to testify before the subcommittee today on 
the Department's nuclear command and control and communication 
systems and the risks, challenges, and opportunities within the 
system and related programs, policies, and priorities for 
modernization and recapitalization of the NC3 system. I am the 
Acting Department Chief Information Officer, and I am the 
senior civilian adviser to the Secretary of Defense for 
information technology and the information enterprise that 
supports the DOD command and control, which includes 
responsibility for policy, oversight, guidance, and 
coordination for the Department's NC3 system.
    My written statement provides more detailed information on 
these matters, but I want to highlight to you some of the 
Department's activities in this critical, important mission 
area. My office's fiscal year 2018 Capabilities Planning 
Guidance states that we need to strengthen our national 
leadership command capabilities to meet changing threats and to 
help the President and national leadership ability to command 
U.S. forces. I believe this budget will help both these areas, 
as we identify threats and ways to mitigate them, which in turn 
helps our Nation's leaders maintain positive control of the 
U.S. nuclear armed forces.
    Specifically, the Council on the Oversight of the National 
Leadership Command, Control, and Communications Systems has 
proved to be a crucial element of the Department's strategy. We 
have been heavily focused on NC3 modernization and sustainment 
programs. We continue that focus but will operationalize the 
discussion based upon what our main customers, USSTRATCOM [U.S. 
Strategic Command], Joint Staff, USNORTHCOM [U.S. Northern 
Command], and the White House, require to accomplish their 
mission over the short and long term. Our objective is to 
ensure with high confidence that the systems provide the 
operational capability in time of crisis.
    Finally, communications is always the key. I believe the 
two-way communication between your professional staffers and 
our DOD teams have increased the capability and readiness of 
our NLCC [National Leadership Command Capabilities] enterprise. 
This communication's flow has provided clarity to the NC3 
mission area, its acquisition process, provided stability for 
NC3 program offices, and ensured warfighter capabilities. We 
are not done. We have more work to do, and the Department is 
actively pursuing modernization while operating within the 
confines of a constrained budget environment.
    Thank you and I look forward to your questions.
    [The prepared statement of Dr. Zangardi can be found in the 
Appendix on page 79.]
    Mr. Rogers. Thank you.
    Ms. Cange, you are recognized.

  STATEMENT OF SUSAN M. CANGE, ACTING ASSISTANT SECRETARY FOR 
         ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Ms. Cange. Good morning, Chairman Rogers, Ranking Member 
Cooper, and members of the subcommittee. I am pleased to be 
here today to represent the Department of Energy's Office of 
Environmental Management and to discuss the important work we 
have recently accomplished, as well as what we plan to achieve 
under the President's fiscal year 2018 budget request.
    The total budget request for the EM [Environmental 
Management] program is $6.5 billion, and of that, $5.5 billion 
is for defense environmental cleanup activities.
    Before discussing this request, I would like to take a 
brief moment to update you on a recent incident at the Hanford 
site. As you know, there recently was a partial collapse of one 
tunnel near the PUREX [plutonium uranium extraction] facility 
that has been used since the 1950s to store contaminated 
equipment. Based on extensive monitoring, there was no release 
of radiological contamination from the incident, and no workers 
were injured. Workers have filled in the collapsed section with 
soil and placed a cover over the tunnel. We are working closely 
with the State of Washington for a more permanent solution. We 
take this event very seriously and are looking closely at 
lessons learned. Maintaining and improving aging infrastructure 
is a priority for EM, and this incident emphasizes the need to 
continue to focus on these efforts.
    With regard to recent accomplishments, we continue to 
demonstrate our ability to make significant progress through 
achievements like resuming shipments of transuranic waste to 
the Waste Isolation Pilot Plant, or WIPP. Our fiscal year 2018 
budget request will enable us to build on this momentum. The 
request allows EM to continue to make progress in addressing 
radioactive tank waste, as well as continuing other important 
work, such as deactivation and decommissioning, soil and 
groundwater cleanup, and management and disposition of special 
nuclear materials, spent nuclear fuel, and transuranic and 
solid waste.
    Our request also includes funding to support the National 
Nuclear Security Administration by tackling some of their high-
priority excess contaminated facilities in Oak Ridge and at the 
Lawrence Livermore National Lab.
    In particular, the 2018 request supports continued waste 
and placement at WIPP. At the Savannah River Site, the request 
supports continuing the tank waste mission through 
commissioning the startup of the Salt Waste Processing 
Facility. And at Hanford, the budget request supports continued 
site remediation along the river corridor, and it supports 
beginning to treat low-activity tank waste by 2023.
    In closing, I am honored to be here today representing the 
Office of Environmental Management. We are committed to 
achieving our mission safely and successfully. Thank you, and I 
am pleased to answer any questions.
    [The prepared statement of Ms. Cange can be found in the 
Appendix on page 83.]
    Mr. Rogers. I thank all the witnesses, and I will recognize 
myself first for questions.
    General Klotz, you talked about the $1 billion increase 
that is in your budget, and while it looks like a lot--and it 
is a lot--there is a lot of deferred maintenance in NNSA. This 
is something that the Obama administration recognized early.
    And, without objection, I would like to introduce a letter 
to that effect from Secretary Moniz in December 2015 that 
clearly states an extra billion dollars a year is needed 
starting in fiscal year 2018.
    [The letter referred to can be found in the Appendix on 
page 95.]
    Mr. Rogers. In that letter, Secretary Moniz says, quote: 
``We estimate that an additional $5.2 over the fiscal year 2018 
through 2021 is needed. Failure to address these requirements 
in the near term will put the NNSA budget in an untenable 
position beginning in fiscal year 2018 and will provide a 
misleading marker to the next administration as to the resource 
needs of the nuclear security enterprise,'' close quote.
    General Klotz, is this billion dollar increase for NNSA's 
weapon activities just filling a gap, or is it an essential 
part of a long-term recovery from your current circumstance?
    General Klotz. Thank you very much for that question, Mr. 
Chairman, and I appreciate all the support that this committee 
has provided to dealing with the infrastructure issues that we 
have within NNSA. And I also appreciate the broad bipartisan 
support for that effort that you outlined in your opening 
statement. We are very grateful for the level of spending that 
has been proposed in the President's fiscal year 2018 budget. 
It will allow us to tackle some of our very important 
infrastructure recapitalization projects, such as the Uranium 
Processing Facility at Y-12 in Oak Ridge, Tennessee, which we 
expect a complete design this year and actually start 
construction next year. But we didn't get into the situation we 
face with aging and, in some cases, crumbling infrastructure 
overnight, and we are not going to get out of it in a day. So 
expect us to come forward next year and in subsequent years 
with requests to begin funding some other very important 
recapitalization efforts in the area of restoring our ability 
to produce plutonium pits and restoring our ability to process 
the lithium which we need for our nuclear weapons program and 
investments to replace our ability to fabricate trusted 
microsystems that we need to ensure that we have the radiation-
hardened electronics for our nuclear forces.
    Mr. Rogers. It is fair to say, and my question is, is it 
fair to say that this is the first year of 5 years funding that 
was a program of record by the Obama administration as being 
essential that was presented to this Congress?
    General Klotz. I think it is fair to say that the new 
administration came in and took a look at our requirements and 
our needs with a fresh set of eyes, and that they agree that 
ensuring that we can complete our life-extension programs in 
order to deliver systems to the Air Force and the Navy on time, 
on schedule, and on budget is essential and also fixing our 
infrastructure so that we are flexible and responsive to the 
needs of our nuclear deterrent, both now and well into the 
future.
    Mr. Rogers. General Rand, the GBSD [Ground-Based Strategic 
Deterrent] and LRSO [Long-Range Standoff Weapon], TMRR 
[technology maturation risk reduction] contracts are supposed 
to be hitting their targets in August or September of this 
year. Is that accurate?
    General Rand. Yes, sir, that is accurate.
    Mr. Rogers. So you don't see a problem with that slipping?
    General Rand. No, sir. I have no indication that will be 
delayed.
    Mr. Rogers. There are many critics that believe LRSO is 
destabilizing. Is that your opinion?
    General Rand. No, sir.
    Mr. Rogers. Can you tell us why?
    General Rand. Well, we have had a nuclear cruise missile 
since the 1960s. This is not a new capability. It is an 
improved capability over the ALCM that we currently have, the 
air-launched cruise missile. And when you have bombers and you 
take off, first of all, there is a visible presence. And as we 
fly today, the enemy, potential adversaries, don't know if we 
are conventional or nuclear, and I don't view that as 
destabilizing at all.
    Mr. Rogers. With that, I will yield to the ranking member 
for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    There are many good parts and many bad parts to the recent 
budget that was submitted to Congress. I thought one of the 
good parts was the termination of the MOX [Mixed Oxide] 
facility in South Carolina.
    General Klotz, would you like to reflect on that?
    General Klotz. Thank you, Representative Cooper. As I 
indicated, the new administration came in and looked at a lot 
of programs that are within the scope of the Department of 
Energy and the National Nuclear Security Administration, and 
came to the conclusion that the MOX Fuel Fabrication Project in 
Savannah River, South Carolina, ought to be terminated. The 
conclusion was based on the fact that this is an 
extraordinarily expensive program: $5 billion have already been 
invested in it. We estimate it would take an additional $12 
billion to go, just to complete the project, and that doesn't 
even begin to address the costs, long-term costs, of operating 
the program.
    We have developed an alternative strategy for disposing of 
excess weapons-grade plutonium. It is called the dilute and 
dispose approach, which we briefed to this committee last year. 
It is a proven technology. We have already emplaced diluted 
plutonium at the Waste Isolation Pilot Project, the WIPP 
facility, in New Mexico. It is proven technology. The risks are 
lower. The costs are lower. And it gets plutonium out of the 
State of South Carolina far faster than the MOX project would.
    Mr. Cooper. Thank you, General. I hope my colleagues will 
pay attention to the general's comments because this is an 
annual issue in the defense authorization bill. So I hope that 
we can come to a sensible resolution. This issue has hung fire 
for many, many years now.
    Ms. Cange, regarding Hanford and the tunnel collapse, it is 
my impression that, in the Trump budget, we are reducing the 
appropriation or the authorization for Hanford by over $100 
million. Is that right?
    Ms. Cange. Yes, sir. The fiscal year 2018 budget request 
for the Richland Operations Office is reduced from what the 
2017 omnibus amount was.
    Mr. Cooper. So you mentioned we are going to be cooperating 
with the State of Washington on fixing that tunnel problem, 
other than just putting dirt on it.
    Ms. Cange. Yes.
    Mr. Cooper. So what is likely to be the resolution?
    Ms. Cange. There is a number of alternatives that have been 
developed and are currently being evaluated. They range from 
potentially filling the tunnel with a fillable grout material 
to stabilize the tunnel and the contamination until such a time 
that a permanent remedy will be implemented to, at the upper 
end, constructing a structure over the tunnel. So the various 
alternatives are still under evaluation.
    Mr. Cooper. So we are really not talking about a fix. We 
are talking about covering up the problem or stabilizing it?
    Ms. Cange. We are talking about ensuring that we stabilize 
the tunnel and the material that is contained within the tunnel 
in a way that this type of incident will not occur again until 
a final remedy is reached between the parties.
    Mr. Cooper. But no one will be able to use the tunnel in 
the meantime.
    Ms. Cange. The tunnel has not been used since the early 
1950s.
    Mr. Cooper. Dr. Zangardi, many of the NC3 programs are 
delayed or over cost. In fact, when you look at the long list 
of those that are delayed and/or over cost, it is almost hard 
to find one that is working on time as expected. What are we 
going to do to improve the performance record here?
    Dr. Zangardi. Yes, sir. Thank you for the question. 
Regarding NC3 programs, breaking the answer down into two 
parts: First, I run the national, the NLCC, and as part of the 
NLCC, we have taken a review of these programs and understand 
your concerns and recognize the delays to the program. The Air 
Force has been tasked by the chairs of the NLCC--AT&L 
[Acquisition, Technology, and Logistics] is one of the chairs, 
along with the Vice Chairmen of the Joint Chiefs of Staff--to 
review these programs, look for areas of causality--is there a 
common cause or root cause between all these problems--and 
develop solutions to get the programs back on track. The 
Department is very focused on correcting these issues.
    Additionally, we were in Omaha, where we had a group 
meeting of about 30 seniors to look at the NC3 enterprise 
several weeks ago. Tasks came out of that to begin looking at 
things we can do to improve the overall operational resilience 
of the systems that are currently out there. So we are looking 
at it in two ways: one, with the NLCC, figuring out how we can 
improve the programs' performance as they come on in the 
future; and, two, dealing with the systems that are out there 
that we must currently maintain.
    Mr. Cooper. So is your answer consistent with the number 
one priority that the nuclear mission has within the Department 
of Defense?
    Dr. Zangardi. Yes, sir, it is. We have stated very clearly 
in meetings with my leadership that this is the highest 
priority. We have stated that very clearly in the NLCC Council 
meetings, and it was very clear when we met at Omaha that this 
is the highest priority. I am in lockstep agreement with 
General Hyten on these issues, sir.
    Mr. Cooper. So we are going to be performing better in the 
future, and I can hold you to that?
    Dr. Zangardi. Our objective is to perform better in the 
future, sir, and I will be glad to come back and answer any 
questions in the future if problems arise or to talk to you 
about performance.
    Mr. Cooper. Well, I think that sounds a little bit like 
accountability, but I am not sure that that is full 
accountability, the willingness to answer questions. Presumably 
you would be willing to answer questions anyway.
    Dr. Zangardi. Yes, sir. It is accountable. I am working 
these areas. I report directly to the DSD [Deputy Secretary of 
Defense] on these areas and keep him apprised of it. The 
accountability is very clear as it is defined in recent 
legislation in the NDAA [National Defense Authorization Act] 
about DOD's CIO having responsibilities in the NLCC area.
    Mr. Cooper. As you well know, without command and control, 
the weapons systems are largely useless.
    Dr. Zangardi. Yes, sir.
    Mr. Cooper. Thank you, Mr. Chairman. I have no questions 
until the closed session.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from the great State 
of Alabama, Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Admiral Benedict, I am concerned about the tight timeframe 
for the Columbia class, and I know you are too. In looking at 
it, I know that there is not too much wiggle room there, so I 
would like to ask you this question: If the Columbia-class 
program is delayed or slips by just one year, will there be a 
gap in the sea-based leg of the triad?
    Admiral Benedict. Yes, sir. Today, the current program has 
basically one Columbia class entering service as one Ohio 
replacement platform departs service. So, if there was a slip, 
although we believe firmly that we can execute the program of 
record, there would be a gap, yes, sir.
    Mr. Byrne. I appreciate your saying it as clearly as you 
did because we need to hear that as we go forward into budgets, 
not just this year, but as you know, in the entire cycle that 
we have got here, we just don't have any room for not hitting 
the mark each year. Is that a fair statement?
    Admiral Benedict. That is a fair statement. We have already 
taken a 2-year slip in the Columbia class, which pushed us 
basically line on line with the Ohio's retirement. Yes, sir, 
that gap has been eroded.
    Mr. Byrne. Admiral, thank you for your candor. Mr. 
Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentlelady from California, 
Mrs. Davis, for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you all for 
being here as well.
    We are aware that, in this budget, there is a 5 percent 
decrease for defense nuclear nonproliferation. And I am just 
wondering how we justify that. I know you mentioned it was 
consistent, I believe, with the 2017 omnibus. But at the same 
time, we are requesting increasingly large sums of money for 
our own nuclear arsenal.
    Is there a disconnect here? And how do you translate this 
to the general public?
    General Klotz. Thank you very much for that question. My 
explanation will be a little lengthy perhaps because I think 
the misunderstanding has to do with how the budget 
appropriations accounts are laid out in the budget. Under the 
line that we call defense nuclear nonproliferation, I would 
bend them in three different ways. First of all, there are 
things that we do in the traditional nonproliferation mission 
space. Then there are dollars that we pay for our ability to 
counter nuclear terrorism and respond to, God forbid, a 
radiological or nuclear incident anywhere in the United States 
or abroad. And then there is also the construction project 
under the defense nuclear nonproliferation account, which 
includes the MOX Fuel Fabrication Facility that Representative 
Cooper just asked about. So the bulk of the reduction in that 
appropriations account reflects the administration's proposal 
that we terminate the MOX project. So the total amount of money 
going to MOX goes from the fiscal year 2017 omnibus level of 
about 345, I believe, down to 279. So that accounts for a lot 
of it.
    And we have also seen an increase in our ability, the 
spending that we want to have for nuclear counterterrorism and 
incident response in order to recapitalize all the equipment, 
the radiation detectors, the secure wireless telephones, that 
our people would use with other domestic partners in responding 
to it.
    In the pure defense nuclear nonproliferation area, the 
funding is relatively flat. It would have been exactly flat if 
the Congress had appropriated what we requested in fiscal year 
2017, but you plussed us up a little bit a week or two before 
the budget went to press, and so there is a very, very slight 
decrease in the overall spending floor that we are proposing 
for defense nuclear nonproliferation. It is still a very robust 
program: $1.8 billion is a very robust program.
    Mrs. Davis. Thank you for that. I appreciate it.
    And I think, Dr. Soofer, to you as well, would you agree 
that the nuclear deterrent is our number one priority?
    Dr. Soofer. Yes, ma'am, I would. Deterring nuclear attack 
and assuring our allies has been a fundamental and enduring 
goal of the United States Government during the Cold War and 
over the last three Nuclear Posture Reviews.
    Mrs. Davis. Would it be a better, I guess, example or 
demonstration of that if we did, as the NNSA did, a long-term 
plan for nuclear weapons modernization? It is my understanding 
that the Department of Defense doesn't really submit a 25-year 
plan for its nuclear weapons plan. Is that accurate, and how do 
we, again, connect that?
    Dr. Soofer. Well, we currently have plans to modernize each 
leg of the nuclear triad, as well as the nuclear command and 
control system, and that modernization will take us out until 
about 2040. We provide Congress an annual report on funding 
over the next 10 years, the section 1043 report.
    But you are correct, Congresswoman, we don't do a 25- or 
30-year plan, but we have forces planned that will last over 
those years.
    Mrs. Davis. I think my time is up, but perhaps there is a 
way to better frame that so that there is a sense of more 
consistency. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentlelady.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you all for 
being here and your service.
    Dr. Soofer, if we studied the technical feasibility of 
mobile-capable ICBMs [intercontinental ballistic missiles], 
along with the advantages and disadvantages of those possible 
weapons, would we learn possible useful information?
    Dr. Soofer. I will ask General Rand to comment on that, but 
I can assure you that, as we conduct a Nuclear Posture Review, 
everything is on the table, and that is something that we will 
have to look at.
    General Rand. Sir, we have looked at that with the GBSD, 
and it is our best judgment that we do not go to mobile. I can 
talk more in the closed session on the reasons why.
    Mr. Lamborn. Okay. Thank you. I am going to ask General 
Klotz and Dr. Soofer another question. I am not a fan of the 
New START [Strategic Arms Reduction] Treaty. For one thing, it 
is a relic of the Cold War. It did not address emerging powers 
like China, just ourselves and the former Soviet Union. When it 
was passed, we now know the Russians were cheating on the INF 
[Intermediate-Range Nuclear Forces] Treaty. And whether or not 
the Obama administration knew this, the Senators who voted on 
it did not know that fact. So I have been distressed because 
the Obama administration was quick to start the dismantling of 
our nuclear forces that were called for under the New START 
Treaty but slow to do the modernization that was promised as a 
hedge against losing capability.
    So, for either General Klotz or Dr. Soofer, please give an 
update on what we have left to do, what is remaining to be done 
to update our nuclear enterprise, which remains unfinished.
    General Klotz. Thank you, Congressman.
    On the NNSA, Department of Energy side, our priorities as 
far as sustaining and modernizing our nuclear enterprise, at 
the moment are focused on four major weapon systems that ride 
on either the Navy sea-launched ballistic missiles or the Air 
Force, two legs of the triad. So a level of effort, as I think 
I suggested in the opening comments, that we have not seen 
since the end of the Cold War.
    So we are also focused on making sure that, within the 
NNSA, within our nuclear enterprise, we have the scientific, 
technical, and engineering base, and the production 
infrastructure that is necessary to continue to sustain a 
moderate and effective nuclear arsenal, and also to be able to 
adapt or respond to any unexpected challenges, whether they are 
technical challenges or whether they are political military 
challenges. And our budget request for fiscal year 2018, I 
think, reflects the importance of making, continuing to make 
investments in this area.
    Mr. Lamborn. Okay. Let me follow up on that, and then we 
will get to Dr. Soofer. Even if we do everything in the budget 
that you recommend, and I hope we do, how much of a gap will we 
still have? I am just asking in general terms, not specific 
terms, for the public at large.
    General Klotz. I still think, as I was responding to 
Chairman Rogers' remarks, I still think we have underinvested 
in the nuclear enterprise since the end of the Cold War. It is 
almost as if, when the Berlin Wall went down and the Soviet 
Union collapsed, we all heaved a sigh of collective relief and 
said, ``Thank goodness, we don't have to worry about that 
anymore.'' And so, for the subsequent years, we didn't make the 
investments we needed. It was not a high priority, either in 
the services or, for that matter, in the Department of Energy.
    We have been trying to rectify that for a number of years 
now on both sides of the Potomac. But as I indicated, it took 
us a long time to get into this situation. It is going to take 
us a while to get out of it, but we are working it very, very 
hard. And with this particular budget, we make a huge down 
payment in some key critical areas that we need to continue 
sustaining our nuclear weapons stockpile and our 
infrastructure. There will be more to follow as we go through 
our process of deciding how best to recapitalize that. So I 
would expect, in next year's budget and in subsequent budgets, 
you will continue to see us place an emphasis on restoring our 
infrastructure.
    Mr. Lamborn. I know time is limited, Dr. Soofer.
    Dr. Soofer. I am sorry. Sir, your comments about the New 
START Treaty are well taken. In fact, when the Congress 
considered the New START Treaty, particularly the Senate, they 
realized that the disparity in tactical nuclear weapons, right, 
nonstrategic nuclear weapons, between Russia and China was 
something of great concern and that that needed to be 
addressed. And since then, Russia has actually increased the 
numbers of its nonstrategic nuclear weapons, and the INF Treaty 
violation is just one example.
    Mr. Lamborn. Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. The Chair now recognizes Mr. O'Rourke for 5 
minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Admiral Benedict, I would like to get your comments and 
your thoughts on commonality between Navy and Air Force. My 
understanding is that you could have similar components for 
land-based deterrence and sub-launched deterrence. Do you feel 
that you have the level of cooperation with the Air Force 
necessary to do that? And, also, could you talk about just what 
that means in numbers in the budget? My understanding is we 
would, in a strategy like this one, likely spend a lot more 
upfront to save a lot more down the road. What are we looking 
at in terms of numbers? And any comments or thoughts you would 
like to share with us so that we are aware in the fiscal year 
2018 budget and also, as we look ahead to future budget years, 
the kinds of factors that we need to be looking at to make sure 
this is a success.
    General Benedict. Yes, thank you for the question.
    I will provide my answer, and then I would like to offer, 
if it is okay with you, General Rand's comments on the subject. 
Commonality is an initiative that I have been pushing for a 
number of years through the concurrence of, at that time, 
Admiral Haney, out at STRATCOM [U.S. Strategic Command], and 
the two RDAs [research, development, and acquisition], the two 
assistants in the Navy and the Air Force. The Navy and the 
United States Air Force were directed to do a commonality 
study. That took about a year. We looked at a spectrum from 
totally common missile, to piece parts, to the programs of 
record.
    Obviously, we came through a technical analysis that said 
total commonality had a number of major technical challenges, 
as well as infrastructure challenges, which made doing that in 
today's environment financially--and from a schedule 
standpoint--unfeasible. The concern is the budget, and we all 
understand the budget to recapitalize. That has been discussed 
here. So what we came up with, at a fairly deep technical 
analysis, is opportunities in all the major subsystems. We 
worked those together, and we pushed that back up through the 
leadership chain.
    In parallel with that, the United States Air Force was 
running its preps for the Ground-Based Strategic Deterrence 
program. Their acquisition strategy was to turn that over to 
industry. All that information was passed to industry in a 
bidder's library. And so the industry partners who bid on the 
GBSD had the opportunity to draw from that library and submit 
that as part of their proposals.
    Those proposals are actually in process of review by the 
United States Air Force, and General Rand can talk to that. I 
think, once we see the results of that down-select as part of 
the Air Force process, then we are prepared with the Air Force 
to reengage and share and continue down the path of 
commonality. But right now, we are--I will say we are paused as 
the Air Force goes through its acquisition down-select, which 
is appropriate.
    Mr. O'Rourke. And I will allow General Rand to answer the 
question as well. So, if I understand, you have decided that 
total commonality doesn't make sense for the reasons that you 
gave. There will be some level of partial commonality.
    What I would like to know from General Rand and from you, 
Admiral, is the year in which we can expect the answer to the 
question that you are trying to get to that is currently 
paused.
    Admiral Benedict. If I may, I will just finish and then 
turn it over to General Rand. In terms of dollar cost savings, 
sir, I, again, I am going to contend that, based on the Air 
Force decision of down-select to two from the three potential 
bidders today to the final solution, I think we need to get to 
that final solution working through this down-select before we 
will be able to provide you a definitive dollar savings in the 
year.
    Mr. O'Rourke. When can we expect to get there?
    General Rand. Yes, sir. We are right now hopefully going to 
have a down-select to two competitors this summer. That will 
give us more fidelity. We will run the TMRR, the Technology 
Maturation Risk Reduction process, for 3 years with those two 
competitors, and then we will further down-select to the source 
in 2021. So it will take a little while to get some of this 
fidelity.
    If I may, sir, first of all, I am the requirements guy. I 
am not the acquisition. I don't drive acquisition strategy. We 
have set the requirements, and we have delivered those 
requirements as we see for GBSD. However, I do think there is a 
misconception, as Terry was talking about, of what commonality 
is. A D5 is not going to work in the land-based missile. It is 
not going to fit in our launch facilities. It would take a 
major overhaul to do that.
    So when you define ``commonality,'' the term that we have 
used is ``smart commonality'' and where can we have synergy 
together. We are looking at repair facilities, manufacturing 
processes, test capabilities. All those could significantly 
reduce redundant and multiple kind of platforms. And those are 
where the savings will be. So we are very supportive of 
commonality, but we believe in open competition, and that is 
where the acquisition strategy is driving us right now.
    Mr. O'Rourke. Thank you very much.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Alabama, Mr. Brooks, for 5 minutes.
    Mr. Brooks. We just passed in the House Foreign Affairs 
Committee a resolution dealing with Venezuela and the economic 
circumstances that they face, and quite frankly, what Venezuela 
is going through is devastating. Seventy-five percent of their 
population has experienced a weight loss of at least 19 pounds 
over the past year because they cannot get enough calories and 
food to sustain their body weight. Medicines are now in short 
supply because the people can't afford them. The government 
can't afford them. You have got diseases that were once 
eradicated coming back, and the reason I bring up these topics 
is we have been warned by the Congressional Budget Office and 
by the Comptroller General of the United States of America and 
by the Government Accountability Office, that America's current 
financial path is unsustainable, which means that, in the 
future, we are risking a similar collapse. And you can imagine 
the adverse effect that would have on our military capabilities 
in particular if we go through the same thing that economic 
reality dictates is going to happen if we don't change our 
trajectory.
    That being the case, and I don't know if any of you all are 
in a position to answer this question, but what can you do in 
the areas that you oversee to increase efficiency so that 
taxpayers can get more bang for the buck, or in the 
alternative, what can you eliminate if the need arises, thereby 
saving money, that might reduce the dangers associated with our 
deficit? And if you can't do anything in the fields that you 
personally oversee, what do you think we should be doing on a 
larger scale to minimize our risk of a debilitating insolvency 
and bankruptcy that our financial gurus warn us is in our 
future?
    Admiral Benedict. Sir, thank you for the question, and I 
understand your point--Trident has been a program, Strategic 
Systems Programs has been in existence for 61 years, and as we 
build the new Columbia class, the Navy's number one priority in 
shipbuilding, that boat will be in the water through 2084. As I 
have looked at my contribution to that program, the strategic 
weapons system, we recently in discussions with Lockheed 
endorsed their plan to move our workforce out of an extremely 
high-cost area to two other locations within the United States 
which----
    Mr. Brooks. I hope Alabama is on that list?
    Admiral Benedict. No, sir.
    Mr. Brooks. You might want to look at the cost of doing 
business in Alabama. Go ahead. I am sorry. Go ahead.
    Admiral Benedict. But, once we do this, and it is a very 
fast-paced move--we will move to Colorado and to Florida--the 
returned savings to the program is somewhere in excess of $55 
million a year. So we understand our contribution to the 
strategic deterrent, to the triad, to the Nation. We also 
understand our responsibility to do so in the most cost-
effective manner possible. So that is I would say one of the 
solution spaces that we constantly review and invoke within the 
program, given the long-term future that we have in support of 
this mission.
    Mr. Brooks. Vice Admiral Benedict, that is wonderful news. 
Does anybody else have any suggestions as to what we can do to 
try to protect America's financial status?
    Dr. Zangardi. In the area that I work in the, sir, in the 
CIO [Chief Information Officer] area, I am specifically tasked 
to look at effectiveness and efficiency, and I work very 
closely with the DCMO [Deputy Chief Management Officer] for the 
Department of Defense. And we are looking at competition, more 
importantly in the IT [information technology] space, if you 
will, much of what we procure is commercial off-the-shelf 
technology, so increased use of commercial off-the-shelf 
technology where we don't engage in making changes to it. So 
imposing and using change management to constrain costs in the 
procurement of business systems is very important, I know not 
directly related to this, but the savings you generate from 
those systems can be used for other purposes. For example, we 
are looking at the Defense Travel System right now, and we are 
looking at moving to commercial applications. I am currently 
assessing pilots to put in place about 15,000 to 30,000 users 
to see how it goes and eventually to move to something that is 
commercial with very little change management.
    Mr. Brooks. Thank you, Dr. Zangardi.
    We are running out of time. I have got 10 seconds. I would 
strongly encourage each of you to do whatever you can to try to 
put more efficiency into the Federal acquisition process, 
particularly the Federal acquisition regulatory process. In my 
experience and observation over the decades, it seems that the 
procurement process has gotten drawn out more and more at 
higher and higher cost, and there has to be a way to fix that. 
Thank you for your time and insight.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Norcross, for 5 minutes.
    Mr. Norcross. Thank you, Mr. Chairman. Mr. Klotz, I want to 
follow up on your comments on MOX. I was down there last year, 
and some of the numbers that you were quoting are in direct 
contradiction to what we saw and what we heard in terms of the 
percentage finished of the plan. Literally, a few weeks ago, we 
allocated $345 million, and you said, in year 2018, we had $279 
million. What is that being used for if you are canceling the 
project?
    General Klotz. The actual amount would be $270 for the MOX 
Fuel Fabrication Facility itself. There is another $9 million 
that is associated with other aspects of our plutonium 
disposition mission. In any large government contract, 
particularly one, a large construction effort that has been 
underway for some years in South Carolina, there are 
termination costs. There are a series of steps we have to take 
dictated by statute and dictated by our own regulations to wind 
down a contract. So, if the Congress agrees with the 
administration's proposal to terminate MOX, then we will come 
back to you with a specific plan as to what we have to do to 
meet those regulatory requirements and at the same time how we 
will proceed with the facility that has been constructed thus 
far.
    Mr. Norcross. So a half a billion dollars for termination 
fees?
    General Klotz. I would be happy to come back to you and lay 
out what the costs are associated with termination.
    Mr. Norcross. So, a year ago, they were almost 70 percent 
complete. I assume they got further along?
    General Klotz. Well, we don't, quite frankly, and with 
respect to those who calculate a higher percentage, the 
standard practice for calculating percent complete, at least 
within the Federal Government, is costs already expensed and 
costs to go. So, if you accept our estimates--or you don't have 
to take my estimates. The U.S. Army Corps of Engineers for the 
total project cost is $17 billion. We have already spent, as I 
indicated, $5 billion. That would leave $12 billion to go. So 5 
divided by 12 is less than 50 percent. So our assumption of the 
way in which we calculate percent complete is different than 
others have calculated it.
    Mr. Norcross. Certainly, then, we have to get to the bottom 
of that because we are talking some considerable money as 
compared to what we just heard about a few minutes ago.
    I yield back.
    Mr. Rogers. The Chair now recognizes the gentleman from 
South Carolina, Chairman Wilson, for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you Chairman Mike Rogers for your leadership of 
the subcommittee with the bipartisan input of Ranking Member 
Jim Cooper. Again, thank each of you for your service. It is 
extraordinary on behalf of our Nation.
    And, of course, General Klotz, I am keenly interested in 
the Mixed Oxide Fuel Fabrication Facility. Last year, Congress 
thoughtfully, in a bipartisan manner, rejected the prior 
administration's shortsighted proposal to terminate the Mixed 
Oxide Fuel Fabrication Facility, the MOX Program, which is 70 
percent completed in the area of South Carolina and Georgia. 
The Congress had many concerns with alternatives, including the 
legal, regulatory, and political issues with storing the 
entirety of 34 metric tons; the fact that it does not comply 
with the Plutonium Management Disposition Agreement, PMDA, with 
the Russian Federation; and the fact that Congress does still 
not have a complete valid cost estimate of the MOX program 
because the Department of Energy never completed a full 
rebaseline. Ultimately, the authorizers and appropriators both 
agreed to continue construction of MOX as the best path forward 
and included legislative text requiring it in the fiscal year 
2015, 2016, and 2017. And the question: Has an industrial-scale 
dilute and dispose method with weapons-grade plutonium ever 
been done before? If not, what is the--if not processed, what 
is the timeline for removal from South Carolina and Georgia?
    General Klotz. Thank you very much, Congressman Wilson. In 
terms of what we know about dilute and dispose, we already have 
5 metric tons of diluted plutonium largely from the Rocky Flats 
facility that used to be in Colorado in WIPP as we speak. We 
have also diluted plutonium that existed at South Carolina--was 
in South Carolina and have shipped that to WIPP. In fact, we 
have done three shipments already this year since. As was 
alluded to earlier, WIPP has reopened for operations.
    I went down to WIPP about a month or so ago and personally 
toured the site and was briefed on what they believe the 
capacity of WIPP is to hold not only nonweapons-grade plutonium 
but all 34 metric tons, and I came away from that quite 
convinced that 34 metric tons can fit within the WIPP facility.
    So the other, I think, very, very interesting point about 
this whole process is it allows us to get plutonium out of the 
State of South Carolina far sooner than would be the case with 
MOX.
    Mr. Wilson. Let's get to that now, because WIPP is not 
industrial grade now, but you are describing something 
industrial grade.
    And what is the timeline? And, specifically, how many years 
are you talking about, because my constituents are very 
concerned about it being a dump and a disposal area, which puts 
our region at risk.
    General Klotz. Well, I don't understand the term 
industrial----
    Mr. Wilson. Capability to truly process a large amount.
    General Klotz. Yes. We have the ability to--what we would 
have to do is--like I said, we are already processing plutonium 
at Savannah River. What it would require would be adding----
    Mr. Wilson. Back again, because time is running out. What 
is the timeline? My constituents and the people of South 
Carolina and Georgia would like to know.
    General Klotz. Let me give you the specific timeline. It is 
not showing up on what I have right here sitting in front of 
me. But I will tell you it is far faster than anything that can 
be done with MOX.
    Mr. Wilson. And that timeline would be? Because the 
reprocessing is going, but what you are describing could take 
years.
    General Klotz. Okay. Here is our estimate: If we went down 
what we call the Surplus Plutonium Disposition Project, we 
expect that we would complete the work that we need to do that 
by 2027 and plutonium disposition would begin in 2028 and end 
in 2049. If we go down the MOX route, we would not complete the 
project until 2048. That is, my rough calculation, 20-some odd 
years later, and we would not begin disposing of plutonium 
through a MOX facility until the year 2050 to 2051, assuming 
that we get all the NRC [Nuclear Regulatory Council] licensing 
completed, and plutonium disposition would not end until 2065, 
which is, again, 15, 20 years after what we would be able to do 
with the surplus--the approach we would like.
    The main difference, however, is the total project cost for 
MOX we estimate to be $17 billion. The total project cost for 
the surplus disposal that we have suggested, right now we have 
a range of $200 million to $500 million to do that. And if 
Congress gives us the authority----
    Mr. Wilson. My time is up. And please look at the--we want 
it removed by reprocessing the weapons-grade plutonium. What 
you are describing is, I consider, long term. But thank you 
very much.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentlelady from Hawaii, Ms. 
Hanabusa, for 5 minutes.
    Ms. Hanabusa. Thank you, Mr. Chair. I am going to direct 
this question to Dr. Soofer because of the fact that your 
testimony referenced it. We are in the process of doing the 
Nuclear Posture Review--or you are in the process of doing 
that. And I think it is a review that is usually done every 5 
to 10 years. I think the last one was in 2010.
    My question is really one more practicality. We have heard 
people take positions on the triad and what we should be 
funding. I think even the Secretary of Defense at one time had 
taken a position questioning whether or not the triad is the 
way to go.
    We have someone who we have all listened to in terms of his 
review of the QDR [Quadrennial Defense Review], and that, of 
course, is former Secretary of Defense William Perry at 
Stanford, who has said, basically, he doesn't like the triad 
system and questions the whole use of long-range missiles, for 
example. And I think, at one point, he even questioned whether 
we should have the concentration of ICBMs as well.
    So, given that and given the fact that this review isn't 
going to be done until the end of the year--and I understand 
that we should continue along the way--decisions that are to be 
made on major expenditures, such as the new bomber, B-21s, and 
all the different types of what is expected to do the nuclear 
defense posture for this country, how do you justify that at 
this particular point in time where we have got people whose 
opinions some of us value, I think most of us at least will pay 
attention to--how can you come before us and take a position 
when we know that there is at least enough of a concern that 
the posture has been required to be reviewed?
    Dr. Soofer. Thank you, Congresswoman. I think there is a 
sense we--we feel there is a sense of urgency to get on with 
the program of record, because the current systems will age out 
within the next 10 to 15 years. And if we do not begin or 
continue the process of acquiring new systems, there will be a 
gap in deterrence capability.
    The previous administration has laid in a nuclear 
modernization program that, again, appears to be consistent 
with general principles of nuclear deterrence. We will examine 
these principles and determine in light of the new strategic 
environment whether they still obtain.
    But there are some basic fundamentals, such as maintaining 
a nuclear triad, that the Secretary of Defense has already 
endorsed. And so, quite frankly, it is just a sense of urgency 
that, if we do not continue the programs this year, there may 
be a gap if it is ultimately determined that the systems are 
needed.
    Ms. Hanabusa. Well, I understand that the Secretary may 
have said he is endorsing it now, but there was a point in 
time, maybe it was before he became Defense Secretary, that he 
called into question the premise of the triad as well. And the 
fact that the NPR has basically now been mandated is 
problematic.
    I understand--the urgency that we speak about here, 
theoretically, I understand all of that, however, we have never 
had such an emphasis, that I recall, where most of the 
briefings that we have had in a very short period of time has 
concentrated on our nuclear position. And I understand it is 
probably triggered by Russia, China, and North Korea. However, 
the concept of developing a systematic posture and to review 
that posture seems to be one that we need to be very certain 
about that threat and how we best address that threat. And that 
is why, for the expenditures that we are being asked to 
authorize, how do we know that this is the best way for us to 
proceed?
    And I am out of time. So we may have to take----
    General Rand. If I may, ma'am, I need to comment on one 
comment that you made about the B-21. We can have the 
discussion about the nuclear posture and the triad, but the B-
21 will be a dual-capable airplane. There is a requirement for 
long-range strike conventionally, and that will be, obviously, 
what that airplane would be doing. Any delay to that program 
would be devastating. Our newest bomber is 25 years old.
    Ms. Hanabusa. I understand that, General. The question is 
more a matter of number, whether it is 100 or 200. We have 
heard two numbers. That is a huge amount of numbers, but 
shouldn't we know whether----
    General Rand. The requirement right now is for 100 B-21s.
    Ms. Hanabusa. Mr. Chair, I yield back. I think that votes 
were called.
    Mr. Rogers. The gentlelady's time has expired.
    The Chair now recognizes the gentleman from Tennessee, Dr. 
DesJarlais, for 5 minutes.
    Dr. DesJarlais. I thank the Chair. This will be a question 
for Ms. Cange and General Klotz.
    During our Oversight and Investigations Subcommittee 
hearing in March on NNSA's deferred maintenance and 
infrastructure challenges, we briefly discussed how certain OMB 
directives have negatively impacted NNSA's ability to get after 
its decaying infrastructure. In particular, OMB Management 
Procedures Memorandum 2015-01 was identified as a huge problem, 
because it, perhaps unintentionally, slows NNSA's ability to 
tear down old buildings and build new ones. General Klotz can 
you give us your personal views on that OMB memorandum and 
whether it impedes NNSA from making smart decisions and moving 
efficiently to deal with infrastructure problems?
    General Klotz. Thank you very much for that question. I 
think the intent behind the directive, which is, as you build 
new buildings, you ought to dispose of excess facilities, is a 
good one. In the--when I was in the Air Force, the rule used to 
be: Build a building, tear a building down. Otherwise, you see 
this behavior where people start to move into those buildings 
which you have moved out of, and you still have an 
infrastructure issue. However, I think the notion that you have 
to do this simultaneously is more constraining than it needs to 
be. I hear anecdotally, I haven't had a chance to get the 
empirical data on that, that maybe some site directors would 
choose to wait to build a new building until they knew they had 
enough money that they could dispose of an older building.
    So I would like to see--it is good intent, but I would like 
to see a little more flexibility in terms of how we actually 
balance new construction with demolition and disposition of old 
buildings.
    Dr. DesJarlais. Okay.
    And, General, I understand your budget request would put an 
additional $195 million above the fiscal year 2017 appropriated 
level toward deferred maintenance and repair needs at NNSA and 
that you, Ms. Cange, have a line in your budget for $225 
million to deal with four excess facilities at Y-12 and 
Lawrence Livermore.
    This is good news, but I need to ask you, General Klotz, 
could you execute additional money on deferred maintenance and 
repair needs if it was provided by Congress?
    General Klotz. The backlog of deferred maintenance is so 
large that what we have asked is not going to buy all of it 
down.
    So it is a question of, you know, timing in terms of which 
the money comes. We do have--there are some capacity limits in 
terms of local craft and companies to be able to do that. The 
other challenge we have at NNSA, and this is where Ms. Cange 
could--has to help us out is many of the facilities you have, 
particularly facilities in Y-12 and our other laboratories are 
contaminated with, you know, either radioactive materials or 
other contaminants, and we have to go through the process of 
decontaminating those facilities first before we can do the 
standard, you know, demolition of that.
    So there are some significant costs associated with some of 
our--some of our facilities.
    Dr. DesJarlais. So the $3.7 billion backlog isn't going to 
get fixed without additional funding in all likelihood?
    General Klotz. Well, thanks to this committee's strong 
support, we stabilized the level of deferred maintenance we had 
in fiscal year 2016. With 2017, we will see it--we will see it 
decrease slightly, modestly. And if the Congress supports the 
fiscal year 2018 budget, we will continue that downward slope.
    I am might add, again, through the support of Congress, one 
of the good news things that came out of the passage of the 
omnibus, fiscal year 2017 omnibus bill, is we will be able to 
proceed with the demolition of the Bannister Federal Complex in 
Kansas City, which is a 5-million-square-foot facility, World 
War II facility, of which we used about 3 million. That is 
now--with the funding provided by the Congress, we will now be 
able to go ahead and do that and also save the Federal 
Government a considerable amount of money in how we do that by 
allowing a private developer to do the demolition and the 
remediation of the property.
    Dr. DesJarlais. Okay. Ms. Cange, do you expect to continue 
into fiscal year 2019 and beyond the excess facilities line 
with environmental management program? I think it is a great 
idea, and I would encourage you to continue it, but is that 
your intent?
    Ms. Cange. Yes, we certainly hope to be able to continue to 
address excess contaminated facilities across the DOE complex. 
I will mention that the 2016 report to Congress that the 
Department submitted on excess contaminated facilities 
estimates approximately $32 billion to address all of the 
excess facilities across the Department's entire complex.
    Dr. DesJarlais. All right. Thank you. And I yield back.
    Mr. Rogers. Okay. We have about 9 minutes left to vote. So 
I am going to go ahead and try to get Mr. Garamendi in before 
we head over to the Chamber, and then we will come back after 
votes for the closed session.
    The gentleman is recognized.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Obviously, all of this is extremely important. I want to go 
to follow up on Mr. O'Rourke's questions about commonality, 
and, specifically, Admiral Benedict, you have a couple of new 
bombs that are being reworked, the W-88 and W-76. Are those--my 
understanding is those are supposed to last some 20 years or 
more into the future? Is that correct?
    Admiral Benedict. Sir, our planning factors are--the life-
extension programs are 30-year extensions to the existing life 
of the weapon itself.
    Mr. Garamendi. Okay. So some 30 years. Do you need the 
interoperable weapon?
    Admiral Benedict. Sir, at the direction of the Nuclear 
Weapons Council, the Navy, the Air Force, and NNSA were 
directed to conduct a study. That study was scheduled to 
commence in 2020, and we will do both the technical analysis of 
the IW [interoperable warhead] as well as the cost analysis. 
That information will be presented approximately late 2021, 
2022 to the Nuclear Weapons Council for review, concurrence, 
and approval, if they so deem so.
    Mr. Garamendi. I am sorry. Late 2021, 2022, what is that?
    Admiral Benedict. 2020, 2021.
    Mr. Garamendi. For the next 3 years, we will continue to 
spend money on the interoperable----
    Admiral Benedict. We will spend money to do the technical 
analysis between the services and NNSA----
    Mr. Garamendi. If I--excuse me.
    Admiral Benedict. Yes, sir.
    Mr. Garamendi. Back and forth here and I hope in a way that 
it is not--so if you have a--two weapons that currently work on 
the missiles and your missiles are good for 30 years and your 
weapons are good for 30 years, do you ever need an 
interoperable for those 30 years?
    Admiral Benedict. Sir, I would say--and then I will defer 
to General Klotz here for one second--the Navy does not have a 
requirement for a third reentry body. However, as we look at 
the complex in total, this issue of IW is larger than just a 
single Navy issue. It involves Navy, Air Force, and the NNSA.
    Mr. Garamendi. So where would the Air Force use this new 
interoperable?
    General Klotz. If I could, Congressman Garamendi, the--
first of all, there is no money in the NNSA account for working 
on the interoperable.
    Mr. Garamendi. There is some money somewhere.
    General Klotz. Well, not explicitly for interoperable in 
ours. We--recall, a few years ago, we deferred the need date 
for that until 2030. So our expectation as we have laid it out 
is we will begin the very serious work on that in 2020 because 
it is about a 10-year process.
    And the reason why we have been proceeding down the path of 
having an interoperable is there is an Air Force system that 
will require a life-extension program in about the 2030 
timeframe. That is the W78 warhead.
    So there was--the thinking when this strategy was developed 
was, well, if we are going to do a life-extension program to an 
Air Force system, wouldn't it make sense in terms of long-term 
cost and efficiency if, as you did that particular warhead, you 
designed it in such a way that it could be used by both the Air 
Force and the Navy and subsequent interoperable warheads so 
that you had some commonality beyond back and forth between the 
two services as you got in the 2030, 2040, 2050 timeframe.
    Mr. Garamendi. And your 50 to 80 new pits--your requirement 
for 50 to 80 new pits, plutonium pits, is it based on this 
interoperable scheme that is somewhere out there in the future?
    Mr. Klotz. It is based on a number of factors. One the 
factors is requirements for, you know, the next series of life-
extension programs, which would include the interoperable 
warhead----
    Mr. Garamendi. We don't have too much time to get into 
this, but I really want to get into this in great detail, 
because it seems to me that we are about to spend billions of 
dollars to do something that ultimately isn't going to happen. 
This interoperable warhead, I'm looking over here at the Navy 
and they're saying, not for 30 years. And I haven't had a 
chance to get to General Rand about this, but I would like know 
exactly when his 30-year period is going to begin.
    And I am out of time, and we have votes, and thank you so 
very, very much.
    Mr. Rogers. I thank the gentleman.
    Just in closing, before we recess to meet after votes in 
the SCIF [secure compartmented information facility] for the 
closed session, I want to put on the record, General Rand, in 
2006, the Air Force identified the UH-1N helicopter is not 
effective for the ICBM security mission. Last year, Secretary 
James recommended an acquisition strategy that would have sole-
sourced these helicopters. Secretary Carter then shelved that 
strategy and directed full and open competition.
    General Rand, can you commit that you will make it clear to 
the entire Air Force that anyone who attempts to interfere with 
the acquisition of this capability will have absolute hell to 
pay?
    General Rand. Yes, sir.
    Mr. Rogers. Thank you, sir. We are in recess.
    [Whereupon, at 11:20 a.m., the subcommittee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                              May 25, 2017

=======================================================================

 
      
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 25, 2017

=======================================================================

      
     [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 25, 2017

=======================================================================

      [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 25, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. General Klotz, would you please describe to us why 
Secretary Moniz tasked the three NNSA laboratory directors to carry out 
the study titled ``U.S. Nuclear Deterrence in the Coming Decades''? 
What did it examine and why? What were some of its high-level 
conclusions?
    General Klotz. Secretary Moniz tasked this study as part of the 
Department's mission to ensure an effective U.S. nuclear deterrent 
through the application of science, technology and engineering. The 
Department of Energy (DOE) strives to ensure U.S. nuclear capabilities 
meet the challenges of known and future geopolitical and technology 
trends.
    The 2014 tri-laboratory study 1) examined known and projected 
future characteristics of global nuclear stability; 2) provided 
perspective on the evolution of U.S. strategic deterrence; 3) assessed 
current policy and programs; 4) examined potential future geopolitical 
and technological trends and scenarios that test the robustness of U.S. 
capabilities; and 5) outlined preliminary recommendations and areas 
meriting further study. The study examined these topics to challenge 
U.S. thinking about DOE programs of record and inform future decisions 
to reduce the risk of technological or geopolitical surprise.
    The three national laboratories agreed that the United States 
needed to take action to ensure that U.S. nuclear capabilities can meet 
the challenges of emerging geopolitical and technological trends. A key 
recommendation was to conduct and periodically update a comprehensive 
assessment of the current and emerging threats to the effectiveness of 
the U.S. nuclear deterrent, including the review of options to address 
identified gaps.
    Mr. Rogers. Please tell us about the Joint Strategic Deterrence 
Review (JSDR) process that was created in December 2016? Why was it 
created and what does it do? How does the Trump administration view the 
JSDR process? How is it incorporating this type of process into the 
Nuclear Posture Review?
    General Klotz. The Joint Strategic Deterrence Review (JSDR) was a 
recommendation that came out of the deterrence study that was tasked to 
the national laboratory directors. The Deputy Secretaries of Energy and 
Defense signed a memorandum of agreement on JSDR to strengthen 
Department of Defense, Department of Energy and the Intelligence 
Community cooperation in analyzing potential threats to the United 
States' ability to maintain strategic deterrence as well as potential 
options for mitigating those threats.
    Each new Administration since the mid-1990s has conducted a Nuclear 
Posture Review. This Administration has followed suit and has directed 
an NPR to be conducted to ensure the U.S. nuclear deterrent is modern, 
robust, flexible, resilient, ready, and appropriately tailored to deter 
21st-century threats and reassure our allies. NNSA will contribute to 
DOD's review, which will account for a broad range of views.
    All NPR deliberations are under executive privilege and not 
releasable. The NPR will be in full accord with the President's 
direction given in the National Security Presidential Memorandum on 
Rebuilding the U.S. Armed Forces from January 27, 2017.
    Mr. Rogers. The bad idea fairy seems to visiting some folks in this 
town and proposing that we should defer spending on the LRSO and GBSD 
programs until the Nuclear Posture Review is complete. Does the 
administration support this idea?
    General Klotz. The Fiscal Year 2018 President's Budget Request for 
NNSA supports the program of record for W80-4 Life Extension Program, 
which is intended for integration into the Air Force's Long Range 
Stand-off (LRSO) cruise missile, as determined by the Nuclear Weapons 
Council. Both the LRSO and the Ground-Based Strategic Deterrent (GBSD) 
are Air Force programs of record.
    Mr. Rogers. Looking at the Trump administration's FY18 budget 
request for DOD nuclear forces and NNSA's nuclear weapons activities, 
is there more consistency between the Obama administration's plans, or 
more difference? Does the FY18 budget request in these areas deviate 
from the Obama administration's plans in any very substantial way?
    General Klotz. The Fiscal Year (FY) 2018 President's Budget Request 
continues the program of record detailed in the FY 2017 Stockpile 
Stewardship and Management Plan. NNSA's Weapons Activities budget 
includes planned increases to the program of record as well as 
increases to adapt to emerging changes, such as updates to the baseline 
costs for the B61-12 Life Extension Program and the W88 Alteration 370.
    Mr. Rogers. Please tell us about the Joint Strategic Deterrence 
Review (JSDR) process that was created in December 2016? Why was it 
created and what does it do? How does the Trump administration view the 
JSDR process? How is it incorporating this type of process into the 
Nuclear Posture Review?
    Dr. Soofer. The JSDR is a joint project between the Department of 
Defense and the Department of Energy to ensure our nuclear programs 
remain informed by the future threat environment. Because we will be 
fielding recapitalized forces decades from now, it is important we 
anticipate the future operational environment so these forces can 
perform their intended functions. The Nuclear Posture Review is 
similarly focused on both the current and future threat environments, 
and is informed by the work of the JSDR.
    Mr. Rogers. The bad idea fairy seems to visiting some folks in this 
town and proposing that we should defer spending on the LRSO and GBSD 
programs until the Nuclear Posture Review is complete. Does the 
administration support this idea?
    Dr. Soofer. No, the Administration does not support any delay to 
these programs and requested full funding for these and all other 
nuclear recapitalization programs. Further delays in recapitalizing our 
nuclear forces could create critical capability gaps and undermine our 
ability to meet deterrence requirements as our current forces age out 
of service. At this critical juncture in the LRSO and GBSD programs, 
deferring or reducing funding would lead to significant delays and 
effectively prejudge the outcome of the Nuclear Posture Review. 
Therefore, we urge Congress to continue its ongoing support for the 
current recapitalization programs as we conduct the Nuclear Posture 
Review. Should the Administration conclude that changes to these 
programs are required, we will work with Congress to adjust 
accordingly.
    Mr. Rogers. What are the consequences if we were to defer spending 
on LRSO and GBSD until we have a completed Nuclear Posture Review in 
hand? How would that impact the programs and the Air Force's ability to 
meet STRATCOM's requirements and schedules?
    Dr. Soofer. There is virtually no schedule margin between legacy 
system age out and the deployment of modernized replacement systems. As 
a result, delays in recapitalizing our nuclear forces could create 
critical capability gaps and undermine our ability to meet deterrence 
requirements as our current forces age out of service. At this critical 
juncture in the LRSO and GBSD programs, deferring or reducing funding 
would lead to significant delays and effectively prejudge the outcome 
of the Nuclear Posture Review. Therefore, it is essential that we 
continue to support the current program of record in order to ensure 
the U.S. maintains a credible, effective nuclear deterrent into the 
future.
    Mr. Rogers. Looking at the Trump administration's FY18 budget 
request for DOD nuclear forces and NNSA's nuclear weapons activities, 
is there more consistency between the Obama administration's plans, or 
more difference? Does the FY18 budget request in these areas deviate 
from the Obama administration's plans in any very substantial way?
    Dr. Soofer. The fiscal year (FY) 2018 budget for DOD nuclear forces 
and NNSA's nuclear weapons activities reflects more continuity than 
change. The FY 2018 budget supports, as did the FY 2017 budget, 
continued recapitalization of each element of our nuclear forces and 
infrastructure.
    Mr. Rogers. What would be the consequences, risks, or benefits of 
delaying or cancelling key nuclear modernization programs--such as the 
GBSD land-based missile, the B-21 bomber, the long-range stand off 
(LRSO) cruise missile, or the new Columbia-class submarine? How firm is 
the need for the current schedules for these programs--is there room 
for slipping their schedules? Do you believe these programs are 
executable on-schedule and on-budget, if they are funded on-time by 
Congress?
    Dr. Soofer. There is virtually no schedule margin between legacy 
system age out and the deployment of modernized replacement systems. As 
a result, further delays in recapitalizing our nuclear forces would 
create critical capability gaps and undermine our ability to meet 
deterrence requirements as our current forces age out of service. 
Therefore, it is essential that we continue to support the current 
program of record in order to ensure the U.S. maintains a credible, 
effective nuclear deterrent into the future. We appreciate Congress' 
continued support for these vital development efforts, and we are 
making every effort to ensure these programs deliver on-time and within 
budget. However, we need everyone to understand that our choice is not 
whether or not to modernize our forces now or later. Rather, the choice 
is between modernizing those forces or watching an unacceptable 
degradation in our ability to field a safe, secure, and effective 
nuclear force--an outcome that incurs significant risk in our ability 
to deter strategic threats to the nation.
    Mr. Rogers. CBO has recently estimated the cost of sustaining, 
operating, and modernizing our nuclear deterrent to be $400 billion 
over the next 10 years, including both DOD and NNSA costs. Do you agree 
with this estimate? CBO estimates this $400 billion represents roughly 
6 percent of the total defense budget during this time period. Do you 
believe this is an appropriate amount to be spending on nuclear 
deterrence?
    Dr. Soofer. The DOD expects nuclear recapitalization costs to total 
approximately $230-$290 billion from FY 2018 to FY 2040, in constant FY 
2018 dollars. This projection includes the total cost of nuclear-only 
systems, and a portion of the cost of the B-21 bomber, which will have 
both conventional and nuclear roles. The DOD projection for total 
recapitalization cost also includes modernizing nuclear command, 
control, and communications systems. I would defer to my Department of 
Energy colleagues for specifics relating to estimated NNSA costs. U.S. 
nuclear weapons deter the only existential threat to the Nation. The 
nuclear enterprise is affordable if nuclear deterrence is prioritized 
appropriately. During the coming period of increased recapitalization 
spending, nuclear forces will remain a small fraction of the DOD 
budget--with annual funding levels that are projected to range from 
approximately 3 percent to 6 percent of total defense spending. This 
includes spending to sustain and operate the existing force--currently 
about $12-14 billion per year--as well as recapitalization spending to 
develop and field modernized replacements.
    Mr. Rogers. Do you think that NATO allies should be asked to share 
part of the costs of the B61 Life Extension Program (LEP)? Would having 
the NATO allies pay for part of the LEP be contrary to the Nuclear 
Nonproliferation Treaty?
    Dr. Soofer. Forward-deployment of B61s is a key aspect of our 
commitment to extend deterrence to our NATO Allies in Europe. NATO has 
repeatedly affirmed the role of nuclear deterrence as a core element of 
its defense strategy and posture, including in the July 2016 Warsaw 
Summit Communique. It is not in the best interest of the United States 
to ask NATO Allies to provide direct funding of the B61 LEP. The B61 
LEP is a key element of our strategic Triad as well as our extended 
deterrence posture around the world, and is not solely focused on the 
deterrence and defense of NATO. Further, allied funding would almost 
certainly create a perception problem regarding U.S. and allied 
compliance with the Nuclear Non-proliferation Treaty (NPT).
    Mr. Rogers. We know there are military requirements on the books 
that the U.S. cannot meet because of our adherence to the INF Treaty--
the treaty that Russia continues to violate. General Selva and others 
have said that they see no indication the Russians will ever return to 
compliance with this treaty. How does the Trump administration view 
this violation and Russia's other arms control violations? What 
response options are being pursued? When will decisions be made on this 
and plans announced?
    Dr. Soofer. Currently we are able to satisfy both our military 
requirements as well as remain in compliance with the Intermediate-
range Nuclear Forces (INF) Treaty. Although there is a military 
requirement to prosecute targets at ranges covered by the INF Treaty, 
those systems do not have to be ground-based. However, ground-based 
systems would increase both the operational flexibility and the scale 
of our intermediate-range strike capabilities. The Administration is 
conducting an extensive review of Russia's ongoing INF Treaty violation 
in order to assess the security implications to the United States and 
its allies and partners. The status quo is untenable and the 
Administration is considering potential response options that could 
address the threat and also remind Russia why it agreed to the INF 
Treaty in the first place. The United States must consider all 
possibilities in developing our response including a world without the 
INF Treaty.
    Mr. Rogers. A United Nations disarmament panel recently released 
its first draft of a proposed global treaty to ban nuclear weapons. The 
U.S. and other nuclear powers have all boycotted these negotiations. 
What is the Trump administration's position on this treaty? Are these 
negotiations damaging the Nuclear Nonproliferation Treaty? How would 
this treaty affect our ability to uphold our extended deterrence and 
assurance commitments? How might it affect our ability to forward-
deploy nuclear weapons and nuclear-capable aircraft? What would be the 
U.S. view towards any of our allies that might support or sign onto 
this treaty?
    Dr. Soofer. The Administration strongly opposes a nuclear weapons 
ban treaty, which completely disregards the realities of the 
international security environment that make nuclear deterrence 
necessary. The proposed ban treaty would not result in the elimination 
of a single nuclear weapon and would not enhance any country's 
security. Instead, such a treaty risks creating an unbridgeable divide 
among the Nuclear Non-proliferation Treaty (NPT) Parties, further 
polarizing the political environment. Although the draft treaty clearly 
attempts to undermine the legitimacy of extended deterrence--our 
extended deterrence partners have been clear that they will not support 
a treaty that is in conflict with NATO policy, with our alliance 
commitments, or with the NPT.
    Mr. Rogers. The last Nuclear Posture Review (NPR) was published 7 
years ago. The world was very different in 2010, particularly when 
talking about Russia. Today, it's hard to see Russia as the partner and 
friend like the 2010 NPR envisioned. Would you please provide us your 
on what has changed in the world since the 2010 NPR? How will this 
affect the NPR and its deliberations?
    Dr. Soofer. The Nuclear Posture Review's analytical process will 
include a full assessment of the strategic environment, including what 
has changed since the 2010 NPR. Recent years have indeed brought 
changes to the security environment that U.S. nuclear policy must 
address. Russia has undertaken aggressive actions against its neighbors 
and threatened the United States and its NATO Allies--including nuclear 
threats. It has elevated strategies of nuclear first use in its 
strategic thinking and military exercises, is modernizing a large and 
diverse non-strategic nuclear weapons force, and is violating the 
landmark Intermediate-Range Nuclear Forces (INF) Treaty. While Russia 
presents significant set of challenges, it is only one element of an 
increasingly complex global strategic environment. The President 
directed the Department of Defense to review U.S. nuclear posture and 
ensure that our nuclear forces are modern, robust, flexible, resilient, 
ready, and appropriately tailored to deter 21st-century threats and 
reassure our allies and partners.
    Mr. Rogers. How important are dual-capable aircraft to the U.S. 
nuclear posture? Do they constitute a critical and necessary component 
of our nuclear deterrence and assurance?
    Dr. Soofer. Yes. U.S. dual-capable aircraft are a critical and 
necessary component of U.S. nuclear posture. The United States must 
continue to maintain the capability to forward-deploy dual-capable 
aircraft as part of its extended nuclear deterrence posture.
    Mr. Rogers. What role do dual-capable aircraft serve in the 
deterrence posture of the NATO alliance? What are the consequences that 
would result from a delay in the initial operating capability of dual-
capable F-35 to our NATO allies?
    Dr. Soofer. The Department of Defense projects no significant delay 
in the delivery of dual-capable F-35A fighters to our NATO Allies. The 
F-35 program maintains schedule margins to account for various risks of 
short-term delay, and those margins remain adequate today. A longer-
term delay could impact the ability of Allies to support the dual-
capable aircraft (DCA) mission. Therefore, it is essential that the 
program remain fully-funded and mitigate schedule risk.
    Mr. Rogers. What role do dual-capable aircraft serve in our 
deterrence and assurance posture on the Korean Peninsula?
    Dr. Soofer. The United States maintains the capability to forward-
deploy nuclear weapons with heavy bombers and dual-capable aircraft in 
support of extended deterrence and assurance of U.S. Allies and 
partners. Deployment of DCA signals U.S. resolve and commitment, and 
provides a forceful reminder to an adversary that might be 
contemplating aggression. The United States remains firmly committed to 
the defense of the Republic of Korea and to strengthening extended 
deterrence using all elements of national power, including the U.S. 
nuclear umbrella, as well as conventional strike and missile defense 
capabilities.
    Mr. Rogers. What are the consequences if we were to defer spending 
on LRSO and GBSD until we have a completed Nuclear Posture Review in 
hand? How would that impact the programs and the Air Force's ability to 
meet STRATCOM's requirements and schedules?
    General Rand. Ground-Based Strategic Deterrent (GBSD) is the 
nation's replacement program for the aging Minuteman III (MMIII) weapon 
system. The GBSD program is currently funded through the Technology 
Maturation Risk Reduction (TMRR) (concept design) phase of the program 
(2020). We expect the TMRR contract to be awarded in the 4th Quarter 
Fiscal Year 2017. Public sources identify the Nuclear Posture Review as 
being completed by the end of the year 2017. If spending was delayed 
beyond the end of TMRR in 2020, there will be a significant sustainment 
cost to support continued MMIII operations through 2035 and beyond. 
MMIII reliability and effectiveness will continue to degrade and it 
will be difficult to maintain a plausible deterrent force that meets 
warfighter needs with assets falling below New START levels in 2030. 
For example, MMIII flight system (or missile itself) begins to age out 
in 2026 followed by obsolescence and attrition of assets affecting 
other crticial weapons systems and facilities issues that have only 
received minimum sustainment pending a major upgrade such as GBSD.
    Long-Range Standoff Weapon (LRSO) is the replacement for the aging 
Air Launched Cruise Missile (ALCM), which was designed in the 1970s, 
fielded in the 1980s is twenty years past its 10-year life expectancy. 
ALCM is no longer cost effective to maintain past 2030 an in future 
years, enemy air defense modernization will challenge ALCM's 
penetration capability. Additionally, testing attrition is depleting 
the inventory. LRSO is currently on schedule to meet its threshold 
Initial Operational Capability (IOC) date of 2030: just in time 
replacement for the ALCM. Deferred spending on LRSO will delay IOC and 
the United States would lose significant deterrence/assurance 
capability. Down-select will occur in August, and if spending were 
delayed to wait on a signed Nuclear Posture Review, numerous waterfall 
effects would occur. Of note, numerous bomber and facility 
modernization and upgrade tests would be impacted, as these test are 
waiting on LRSO to ``set the stage'' or lay the infrastructure for 
them. Additionally, the LRSO schedule is aligned with its associated 
warhead, the W80-4, and a delay in the cruise missile will have 
significant negative effects on the warhead development and production 
schedule.
    Mr. Rogers. Please describe the military requirements that are 
driving U.S. nuclear modernization plans in your respective services. 
What do we see other countries doing and how does that impact our 
requirements? How does aging or vulnerabilities in our own U.S. nuclear 
forces impact requirements and modernization plans?
    General Rand. [The information provided is classified and retained 
in the committee files.]
    Mr. Rogers. What would be the consequences, risks, or benefits of 
delaying or cancelling key nuclear modernization programs--such as the 
GBSD land-based missile, the B-21 bomber, the long-range stand off 
(LRSO) cruise missile, or the new Columbia-class submarine? How firm is 
the need for the current schedules for these programs--is there room 
for slipping their schedules? Do you believe these programs are 
executable on-schedule and on-budget, if they are funded on-time by 
Congress?
    General Rand. If the Air Force does not develop and produce the B-
21, the U.S. will lose bomber penetration capabilities in highly 
contested threat areas. The B-21 will support the nuclear Triad, 
providing a visible and flexible nuclear deterrent capability that will 
reassure allies and partners. A fleet size of 100 B-21s is appropriate 
and ensures sustained high-end conventional operations while supporting 
the nuclear Triad as a visible and flexible deterrent to assure allies 
and partners. Analysis has shown that the B-21 is needed to address 
decreasing survivability and combat capabilities in our current bomber 
force, ensuring penetration capabilities in highly contested combat 
airspace. Delaying B-21 production or procuring any less than 100 B-21s 
will have a detrimental impact on the B-21 contract, causing increases 
in the average procurement unit cost and total program cost similar to 
what was seen with the B-2 program. Global Strike Command has developed 
its Bomber Vector based on the current B-21 development and production 
schedule. The Bomber Vector lays out planned modernization, 
sustainment, and aircraft retirement plans. Any delays or decreases to 
the B-21 program will result in capability gaps and/or Bomber Vector 
adjustments requiring additional modernization programs, manpower 
solutions, and costly force mix decisions.
    Ground-Based Strategic Deterrent (GBSD) is the nation's replacement 
program for the aging Minuteman III (MMIII) weapon system. The GBSD 
program is currently funded through the Technology Maturation Risk 
Reduction (TMRR) (concept design) phase of the program (2020). We 
expect the TMRR contract to be awarded in the 4th Quarter Fiscal Year 
2017. Public sources identify the Nuclear Posture Review as being 
completed by the end of the year 2017. If the program was delayed 
beyond the end of TMRR in 2020, there will be a significant sustainment 
cost to support continued MMIII operations through 2035 and beyond. 
MMIII reliability and effectiveness will continue to degrade and it 
will be difficult to maintain a plausible deterrent force that meets 
warfighter needs with assets falling below New START levels in 2030. 
For example, MMIII flight system (or missile itself) begins to age out 
in 2026 followed by obsolescence and attrition of assets affecting 
other critical weapons systems and facilities issues that have only 
received minimum sustainment pending a major upgrade such as GBSD. GBSD 
is just in time, no room to slip, to meet critical MMIII age out, 
obsolescence and asset depletion/attrition issues. The program is ready 
to execute and award the TMRR contract on time and on schedule.
    If we do not develop and produce the Long Range Stand Off missile 
(LRSO), the U.S. could lose the following capacities. Deterring 
potential adversaties from nuclear weapon usage--central to today's 
national security strategy. Deterrence requires a range of US military 
capabilities and LRSO is a key piece of this strategy. An option the 
president currently has and a capability that our peers/near-peers 
already have or are developing. Flexible stand-off capability supports 
hedge requirements in the event another leg of the Triad encounters 
issues. LRSO allows the U.S. to continue to impose costs on potential 
adversaries long into the future, as it provides continued flexibl 
response options. LRSO is a force multiplier compatible with the B-52, 
and the B-21; extends range, enables simultaneous targeting of multiple 
targets, lowers risk to aircrew/aircraft by reducing target overflight 
requirements, reduces tanker and support requirements. LRSO assures 
U.S. allies by signaling resolve to defend itself and its allies. This 
resolve is significantly enhanced by the credibility of the bomber 
force to hold almost any target at risk by extending its effective 
range with standoff capability. LRSO provides presidential options and 
overt strategic messaging to peer nations as a visible indication of 
operational status and national intent, e.g. bombers on nuclear ground 
alert.
    Mr. Rogers. What are the military effectiveness and cost 
implications of choosing to life extend the current Minuteman III 
missile fleet and related ground infrastructure, rather than pursue 
GBSD?
    General Rand. The Ground Based Strategic Deterrent Analysis of 
Alternatives that received Office of the Secretary of Defense Cost 
Analysis and Program Evaluation (OSD/CAPE) sufficiency review concluded 
that investment is required to extend intercontinental ballistic 
missile life beyond 2030. The analysis revealed a replacement system, 
mitigating capability shortfalls, as the most cost-effective strategy. 
``Life Extending'' Minuteman III will cost more than full system 
recapitalization, and would not address warfighting capability gaps 
validated by the Joint Requirements Oversight Council. The following 
are the analysis of alternatives costs identified:
  Ground Based Strategic Deterrent 50 year life cycle cost--$159.2B
  Minuteman III Service Life Extension Program (Baseline) life cycle 
        costs--$160.3B
    Over the next twenty years, nearly the entire Minuteman III system 
requires investment to address declining reliability, aging and 
supportability issues.
    Mr. Rogers. Why is LRSO required if we also have a B61-12 nuclear 
gravity bomb carried by a penetrating B-21 bomber--is this duplicative? 
Do we need both?
    General Rand. [The information provided is classified and retained 
in the committee files.]
    Mr. Rogers. We understand that the Air Force and its potential 
contractors are considering a more mobile concept for the command and 
control of the GBSD missile system, rather than relying on the 
redundancy and survivability of a distributed system of many fixed 
launch control centers as in the current ICBM fields. As STRATCOM has 
pointed out, this is a technologically challenging approach with 
considerable risk. Why is the Air Force going down this path? What is 
the Air Force doing to address these risks and ensure this concept does 
not decrease the size of the missileer career field such that it is no 
longer sustainable?
    General Rand. The Ground Based Strategic Deterrent (GBSD) Force 
Development Concept does pursue capabilities such as a hybrid/mix of 
mobile command and control (C2), similar launch control centers as 
utilized in Minuteman III, on-base integrated launch control center, 
and an alternate/airborne launch control system (ALCS). The concept 
does not provide exact numbers of nodes. A from-the-ground-up GBSD 
system design allows for Air Force Global Strike Command (AFGSC) to 
take advantage of technologies to pursue a more cost effective and 
efficient approach on to how intercontinental ballistic missiles 
(ICBMs) are operated, maintained, and secured. The final number of 
launch control centers will be assessed for survivability and apply 
robust risk management even if it is the same number of centers used in 
Minuteman III. AFGSC is adding additional oversight in cyber, wireless 
(if this is included in the final solution), and nuclear safety areas 
to manage risk.
    The Airborne Launch Control System--Replacement program executing 
in parallel may advance launch control center suite development and 
provide the hooks in design to become common with the GBSD application. 
This would allow commonality in missileer training and operations, 
versus the differences which currently exist between Minuteman III ICBM 
console and ALCS console. Mobile and integrated operations using a 
common console would enhance career opportunity and offer different 
operating environments for the missileer career field.
    Mr. Rogers. How important are dual-capable aircraft to the U.S. 
nuclear posture? Do they constitute a critical and necessary component 
of our nuclear deterrence and assurance?
    General Rand. Global Strike Command's B-2 and B-52 are both dual-
capable bombers. The B-21 is being developed as a dual-capable bomber 
and will be nuclear capable within two years of declaring conventional 
initial operational capability (as directed by the Fiscal Year 2013 
National Defense Authorization Act). These bombers, along with the 
weapons they carry, constitute the entirety of the air-breathing leg of 
the Triad. Additionally, they are the most visible leg of the nuclear 
Triad, and inherently stabilizing. The process of arming bombers and 
delivering weapons is a time consuming effort requiring hours to days, 
not minutes. Bombers are the leg of the Triad seen as the least 
threatening to stability, which is why arms control experts afforded a 
discount for bomber weapons in New START. Second, bombers are 
intrinsically stabilizing in the nuclear arena due to the ability to be 
launched and then recalled prior execution. Third, nuclear bombers 
offer the ability to signal National intentions in a very visible 
manner. Fully loaded nuclear bombers on alert are a very powerful 
message. This visibility is critical to providing nuclear deterrence 
for our adversaries and even more critical to providing assurance to 
our allies. The bomber, since its inception, has been a sysmbol of 
America's commitment to its allies and serves as a deterrent to the 
proliferation of nuclear capabilities.
    Mr. Rogers. Please describe the military requirements that are 
driving U.S. nuclear modernization plans in your respective services. 
What do we see other countries doing and how does that impact our 
requirements? How does aging or vulnerabilities in our own U.S. nuclear 
forces impact requirements and modernization plans?
    Admiral Benedict. In order to support the Commander, STRATCOM 
mission requirement for sea-based strategic deterrence, the Navy must 
provide a minimum force of 10 operational SSBNs. Today, we meet that 
requirement with 14 OHIO Class SSBNs. In the future, we will meet the 
requirement with a force structure of 12 COLUMBIA Class SSBNs, as the 
class will not require a lengthy engineered refueling overhaul due to a 
life of ship core. The Navy has already extended the existing OHIO 
Class service life from 30 years to 42 years, and there is no 
engineering margin left for further extension. This extension provides 
an additional 40 percent service life and will result in the OHIO Class 
being in service longer than any SSBN or SSN in U.S. history. Any delay 
to the COLUMBIA Class program could reduce the total SSBN force 
structure below that required to provide 10 operational SSBNs during 
the transition period from the OHIO Class to the COLUMBIA Class, which 
would prevent the Navy from meeting the STRATCOM at-sea requirements.
    The assumptions of adversaries' nuclear force structures, 
capability developments, and doctrines play a major role in our 
assessments of the current and future threat environment and contribute 
to strategy and force structure decisions. Maintaining our ability to 
deter and, if deterrence fails, respond to future threats underpins our 
national strategy. The results of the ongoing Nuclear Posture Review 
will inform any recommendations to the existing nuclear triad program 
of record.
    Mr. Rogers. What would be the consequences, risks, or benefits of 
delaying or cancelling key nuclear modernization programs--such as the 
GBSD land-based missile, the B-21 bomber, the long-range stand off 
(LRSO) cruise missile, or the new Columbia-class submarine? How firm is 
the need for the current schedules for these programs--is there room 
for slipping their schedules? Do you believe these programs are 
executable on-schedule and on-budget, if they are funded on-time by 
Congress?
    Admiral Benedict. There is no margin in the COLUMBIA Class SSBN 
program--it is imperative that we remain on schedule. The OHIO Class 
SSBN was originally designed for a 30-year service life. In 1998, Naval 
Reactors and NAVSEA completed a detailed engineering analysis including 
evaluation of the current material condition of the class, remaining 
fuel levels, and expected future operational demands of the platform. 
At that time, the OHIO Class service life was extended to 42 years (a 
40 percent increase). Any further extension would erode the engineering 
safety margin to an unacceptable level. The longest serving nuclear 
submarine to date was the USS KAMEHAMEHA at 37 years of service. Any 
delay to the COLUMBIA Class program could reduce the total SSBN force 
structure below that required to provide 10 operational SSBNs during 
the transition period from the OHIO Class to the COLUMBIA Class, which 
would prevent the Navy from meeting STRATCOM at-sea requirements. While 
there is no schedule margin left, the COLUMBIA Class program of record 
is executable, assuming adequate and stable funding. This is true for 
the entire nuclear enterprise in general. The nation chose to defer 
modernization efforts on our nuclear weapons enterprise after the Cold 
War and it cannot be deferred any longer without loss of capabilities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. What is your (military) opinion of the value of the new 
START Treaty? What would the risk be of preventing negotiations to 
extend the New START Treaty as long as Russia is not in compliance with 
the INF Treaty?
    General Rand. This question was covered quite extensively during 
the ratification process for New START by a wide variety of witnesses. 
As noted at the time by the CDRUSSTRATCOM (Gen Chilton), New START 
``does not constrain America's ability to continue to deter potential 
adversaries, assure our allies and sustain strategic stability''. I 
believe those observations remain true today. I would also note that 
New START limits the number of Russian warheads that can target the 
United States. New START's flexible limits on deployed and non-deployed 
delivery platforms retain sufficient flexibility to manage our Triad of 
deterrent forces to hedge against tactical or geopolitical surprise. 
Lastly, New START continues a strategic nuclear arms control 
verification regime of notifications and on the ground observations/
inspections of Russian strategic forces by U.S. personnel. There are 
obvious risks in preventing negotiations on extending New START due to 
Russian non-compliance with the INF Treaty. First, having the U.S. tie 
discussions on one treaty to disputes in another would likely cause 
Russia to adopt the same approach. In my opinion, this would 
unnecessarily complicate resolving issues in either treaty. Secondly, 
while I vigorously support holding Russia to account for complying with 
all treaties, we have to keep in mind that without treaty constraints, 
Russia is free to do as it wants. It is important to weigh the impact 
of treaty disputes against the possibility of a treaty not being 
extended, or of Russian withdrawal from one or more treaties. The 
issues that we have with Russian non-compliance with INF are serious 
and should be dealt with, however my recommendation is that the U.S. 
not bring INF issues in other treaty areas.
    Mr. Cooper. Is there a military requirement for a conventional 
Long-Range Stand-Off weapon? What would the costs be to make it 
conventional?
    General Rand. [The information provided is classified and retained 
in the committee files.]
    Mr. Cooper. What is your (military) opinion of the value of the new 
START Treaty? What would the risk be of preventing negotiations to 
extend the New START Treaty as long as Russia is not in compliance with 
the INF Treaty?
    Admiral Benedict. I believe that bilateral and verifiable arms 
control agreements are a key component of our national security and 
provide insight into potential adversary capabilities to maintain the 
strategic status quo. However, further reductions of nuclear forces 
should only be undertaken after a complete assessment of the current 
security environment, particularly in regards to our nuclear armed 
adversaries. Any future arms control agreements should take into 
account prior actions, verifiability, and the arms control agreement's 
contribution to maintaining strategic stability. These things, along 
with a full intelligence assessment of the present and future threat 
environment will be central to the Nuclear Posture Review (NPR). The 
results of the NPR will inform any decisions on adjustments to 
strategy, force structure, and recommendations on how to best address 
the future threat environment.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Looking at the Trump administration's FY18 budget 
request for DOD nuclear forces and NNSA's nuclear weapons activities, 
is there more consistency between the Obama administration's plans, or 
more difference?
    General Klotz. The Fiscal Year (FY) 2018 President's Budget Request 
continues the program of record detailed in the FY 2017 Stockpile 
Stewardship and Management Plan. NNSA's Weapons Activities budget 
includes planned increases to the program of record as well as 
increases to adapt to emerging changes, such as updates to the baseline 
costs for the B61-12 Life Extension Program and the W88 Alteration 370.
    Mr. Franks. CBO has recently estimated the cost of sustaining, 
operating, and modernizing our nuclear deterrent to be $400 billion 
over the next 10 years-including both DOD and NNSA costs. Do you agree 
with this estimate?
    CBO estimates this $400 billion represents roughly 6 percent of the 
total defense budget during this time. Do you believe this is an 
appropriate amount to be spending on the nuclear deterrence?
    General Klotz. NNSA publishes future year cost estimates in our 
annual Stockpile Stewardship Management Plan (SSMP), but NNSA has not 
estimated costs for the Department of Defense portion of the $400 
billion estimate and therefore has no basis by which to judge its 
accuracy. The DOE portion of Congressional Budget Office's (CBO) $400 
billion estimate was $134 billion. Our own current estimate for that 
period (2017-2026), as detailed in the SSMP, is $112-120 billion.
    Since the end of the Cold War, investments in the strategic 
deterrent have fallen to under 4 percent of the defense budget, but 
historically has been much higher than 6 percent during periods of 
recapitalization, particularly prior to the end of the Cold War. Over 
the past 40 years, Weapons Activities funding has ranged from 1.0 to 
1.7 percent of total Defense discretionary spending. At currently 
planned levels, Weapons Activities spending over the next 10 years 
would constitute about 1.6 percent of defense spending.
    The National Nuclear Security Administration's missions include 
maintaining the safety, security, reliability, and effectiveness of the 
nuclear weapons stockpile; reducing the threat of nuclear proliferation 
and nuclear terrorism around the world; and providing nuclear 
propulsion for the U.S. Navy's fleet of aircraft carriers and 
submarines. NNSA's budget is vital to ensuring that U.S. nuclear forces 
are modern, robust, flexible, resilient, ready, and appropriately 
tailored to deter 21st-century threats and reassure America's allies. 
NNSA's budget represents a prudent investment in a key component of our 
overall defense strategy. Significant and sustained investment is 
needed to replace aging infrastructure, provide for warhead life 
extension programs, revitalize our production capabilities, continue to 
advance the science which guarantees the safety, reliability and 
effectiveness of the stockpile, and sustain our highly talented 
workforce. Failure to make the right investments could significantly 
impact the deterrent.
    Mr. Franks. Looking at the Trump administration's FY18 budget 
request for DOD nuclear forces and NNSA's nuclear weapons activities, 
is there more consistency between the Obama administration's plans, or 
more difference?
    Dr. Soofer. As NNSA Administrator Lieutenant Colonel Klotz noted in 
testimony, the President's FY 2018 budget request reflects an increase 
for NNSA nuclear weapons activities. For the Department of Defense 
portion, the fiscal year (FY) 2018 budget reflects more continuity than 
change. The FY 2018 budget supports, as did the FY 2017 budget, 
continued recapitalization of each element of our nuclear forces and 
infrastructure.
    Mr. Franks. CBO has recently estimated the cost of sustaining, 
operating, and modernizing our nuclear deterrent to be $400 billion 
over the next 10 years, including both DOD and NNSA costs. Do you agree 
with this estimate?
    CBO estimates this $400 billion represents roughly 6 percent of the 
total defense budget during this time. Do you believe this is an 
appropriate amount to be spending on the nuclear deterrence?
    Dr. Soofer. The DOD expects nuclear recapitalization costs to total 
approximately $230-$290 billion from FY 2018 to FY 2040, in constant FY 
2018 dollars. This projection includes the total cost of nuclear-only 
systems, and a portion of the cost of the B-21 bomber, which will have 
both conventional and nuclear roles. The DOD projection for total 
recapitalization cost also includes modernizing nuclear command, 
control, and communications systems. I would defer to my Department of 
Energy colleagues for specifics relating to estimated NNSA costs. U.S. 
nuclear weapons deter the only existential threat to the Nation. The 
nuclear enterprise is affordable if nuclear deterrence is prioritized 
appropriately. During the coming period of increased recapitalization 
spending, nuclear forces will remain a small fraction of the DOD 
budget--with annual funding levels that are projected to range from 
approximately 3 percent to 6 percent of total defense spending. This 
includes spending to sustain and operate the existing force--currently 
about $12-14 billion per year--as well as recapitalization spending to 
develop and field modernized replacements.
    Mr. Franks. The last Nuclear Posture Review (NPR) was published 7 
years ago. The world was very different in 2010, particularly when 
talking about Russia. Today, it's hard to see Russia as the partner and 
friend like the 20101 NPR envisioned.
    Would you please provide us your assessment on what has changed in 
the world since the 2010 NPR?
    How will this affect the NPR and its deliberations?
    Dr. Soofer. The Nuclear Posture Review's analytical process will 
include a full assessment of the strategic environment, including a 
review of how that environment has changed since the 2010 NPR. Recent 
years have indeed brought changes to the security environment that U.S. 
nuclear policy must address. Russia has undertaken aggressive actions 
against its neighbors and threatened the United States and its NATO 
Allies--including nuclear threats. It has elevated strategies of 
nuclear first use in its strategic thinking and military exercises, is 
modernizing a large and diverse non-strategic nuclear weapons force, 
and is violating the landmark Intermediate-Range Nuclear Forces (INF) 
Treaty. However, while Russia presents a significant set of challenges, 
it is only one element of an increasingly complex global strategic 
environment. The President directed the Department of Defense to review 
U.S. nuclear posture and ensure that our nuclear forces are modern, 
robust, flexible, resilient, ready, and appropriately tailored to deter 
21st-century threats and reassure our allies and partners.
    Mr. Franks. CBO has recently estimated the cost of sustaining, 
operating, and modernizing our nuclear deterrent to be $400 billion 
over the next 10 years, including both DOD and NNSA costs. Do you agree 
with this estimate?
    CBO estimates this $400 billion represents roughly 6 percent of the 
total defense budget during this time. Do you believe this is an 
appropriate amount to be spending on the nuclear deterrence?
    General Rand. The $400 billion estimate is based on a snapshot in 
time. Global Strike Command's portion for the nuclear enterprise 
funding was included in the CBO estimate, therefore I can't speak for 
our sister services and the Department of Energy. The estimated amount 
could fluctuate based on future budgets, adversary advancements, and 
new/competing requirements. Increases from 2015 are rightly attributed 
to modernization and replacement programs becoming more mature.
    While the CBO report covers 2017-2026, the current cost estimates 
for Air Force Global Strike Command peak in 2030 when a number of 
modernization and replacement programs are going on all at once. 
Considering the deterrence and assurance provided by our nation's 
nuclear weapon programs, the CBO's number of 5-7% of the total national 
defense budget is quite a bargain. While I can't speak to Navy and 
Department of Energy costs, the CBO numbers on Air Force Global 
Strike's portion of sustaining, operating, and modernizing our nuclear 
deterrent are in line with our projections.
    It is encouraging that the CBO included estimates for the command 
and control, communications (NC3) and early warning systems in the 
report. When discussing nuclear modernization, these critical systems 
are omitted from discussions. This country relies on positive command 
control of nuclear forces. Only the President may authorize the use of 
nuclear weapons by utilizing NC3 systems.
    Mr. Franks. CBO has recently estimated the cost of sustaining, 
operating, and modernizing our nuclear deterrent to be $400 billion 
over the next 10 years, including both DOD and NNSA costs. Do you agree 
with this estimate?
    CBO estimates this $400 billion represents roughly 6 percent of the 
total defense budget during this time. Do you believe this is an 
appropriate amount to be spending on the nuclear deterrence?
    Admiral Benedict. The CBO estimate of $400 billion represents many 
elements across multiple agencies and services within the overall 
nuclear deterrence mission. The 1-2 percent of the national defense 
budget for the sea-based strategic deterrent is appropriate and 
consistent with what our nation previously invested to build both the 
``41 for Freedom'' in the 1960s and the first nuclear modernization 
with the OHIO Class in the 1980s. The Navy is continually reviewing and 
validating the requirements needed to sustain the sea-based leg of the 
triad. A safe, secure, and reliable nuclear deterrent underpins our 
ability to conduct conventional operations around the world. Beyond 
deterring the threat of nuclear attack on the United States, having 
credible nuclear forces is essential to assuring our allies of our 
extended deterrence commitments, thereby convincing them that they do 
not need to pursue their own nuclear weapons. Recapitalization is a 
significant investment that happens every other generation, making it 
critically important that we do it right. We remain focused on cost-
efficiency to ensure an affordable sea-based strategic deterrent.
    Mr. Franks. CBO has recently estimated the cost of sustaining, 
operating, and modernizing our nuclear deterrent to be $400 billion 
over the next 10 years, including both DOD and NNSA costs. Do you agree 
with this estimate?
    CBO estimates this $400 billion represents roughly 6 percent of the 
total defense budget during this time. Do you believe this is an 
appropriate amount to be spending on the nuclear deterrence?
    Dr. Zangardi. The Congressional Budget Office's cost estimate for 
sustaining, operating, and modernizing our nuclear deterrent is not the 
same dollar amount that DOD will provide Congress in its classified 
Fiscal Year 2018 annual report on the Nuclear Weapons Stockpile, 
Nuclear Weapons Complex, Nuclear Weapons Delivery Systems, and Nuclear 
Weapons Command and Control System (the ``Section 1043 Report''). I 
believe that the proposed funding stated in the Department of Defense's 
Section 1043 Report reflects the funding needed to support our Nation's 
nuclear deterrence.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Why do we need the IW-1 rather than a life-extended 
W78? What steps is NNSA taking to ensure that any changes to the 
warhead, including any modifications to the nuclear components, do not 
affect the reliability of the warhead?
    General Klotz. The Nuclear Weapons Council's (NWC's) August 2016 
Strategic Plan reaffirmed the need for the interoperable warhead 1 
(IW1) as the first ballistic missile in the 3+2 Nuclear Stockpile 
Strategy. The 3+2 Strategy is a long-term strategy with emphasis on 
reduced warhead types, interoperability to enable smaller inactive 
stockpile, and reduced burden on production infrastructure. The IW1 
objective is to deploy an interoperable nuclear explosive package for 
use in the Mk21 intercontinental ballistic missile aeroshell and the 
Mk5 submarine-launched ballistic missile aeroshell with adaptable non-
nuclear components.
    IW1 will accomplish the following: 1) replaces capability currently 
provided by the aging W78; 2) rebalances sea-leg deployment to reduce 
risk against technical failure; and 3) along with IW2, enables 
replacement of capability provided by the W88. A W78 life extension 
program may not provide the capability envisioned for IW1 or meet the 
long-term requirements of the 3+2 Strategy. The pending NPR may shed 
greater light on this issue.
    Warhead reliability is one of many requirements established by the 
Department of Defense in what are called Military Characteristics 
(MCs). The IW1 MCs will be generated by the DOD and approved by the 
Nuclear Weapons Council (NWC), but they are not officially established 
yet. As with all ongoing nuclear warhead life extensions programs and 
major modifications, NNSA performs extensive testing and analytical 
assessments to meet reliability requirements prior to deployment of the 
warhead. With over 70 years of experience, the NNSA (through its Design 
and Production Agencies) has established proven processes to meet 
reliability and other objectives for both newly manufactured and reused 
components and expects to do so for IW1.
    Mr. Garamendi. The Trump administration has decided to terminate 
the MOX project, noting that ``major cost overruns and schedule 
slippages have led to a re-examination of how best to achieve [our 
nonproliferation commitments]'' and ``It would be irresponsible to 
pursue this approach when a more cost-effective alternative exists.''
    Why did this administration decide to terminate the MOX Project? 
Have any new reviews taken place under the new administration?
    Is DOE considering other missions for Savannah River Site? Which 
ones?
    General Klotz. Independent cost reviews and estimates directed by 
Congress have all concluded that the MOX program of record is 
significantly more expensive and would take more time than originally 
planned. The new Administration reviewed all independent reports and 
met with all parties including MOX Services, the current contractor, 
and their parent companies to fully understand the costs, challenges, 
and risks associated with constructing the MOX project or pursuing the 
dilute and dispose approach. After careful review, the Administration 
came to the same conclusion as the last Administration--that the 
current MOX program of record is unaffordable and the dilute and 
dispose approach meets the nonproliferation requirements much faster 
with significantly lower cost and risk.
    Most of the information reviewed by the new Administration and key 
decision makers were from prior studies, including the recent U.S. Army 
Corps of Engineers report on the Mixed Oxide Fuel Fabrication Facility 
contract structure and the Government Accountability Office's Plutonium 
Disposition report to the Senate Armed Services Subcommittee on 
Strategic Forces.
    Mr. Garamendi. To what extent are Weapons Activities infrastructure 
investments driven by the 50-80 pits per year production requirement 
and to what extent is the 50-80 pits per year production requirement 
driven by the IW-1?
    General Klotz. NNSA's Plutonium Strategy includes a number of 
investments intended to sustain the capabilities necessary to support 
stockpile requirements. These include a combination of line-item 
projects and resource investments that help reduce mission dependency 
on aging facilities, modernize our infrastructure, and help NNSA meet 
statutory pit production requirements, including achieving a 50-80 war 
reserve (WR) pits per year (ppy) production capacity in the 2030s. Much 
of this investment would be required, regardless of the pit production 
requirement.
    The January 16, 2014, Assessment of Nuclear Weapon Pit Production 
Requirements Report to Congress confirmed the need for achieving 50-80 
ppy production capacity by 2030, citing multiple drivers. Key among 
these drivers are both the need to support future stockpile planning 
requirements and address stockpile needs due to pit aging. The 
requirement to achieve a 50-80 ppy production capacity was codified by 
Congress most recently in the 2016 National Defense Authorization Act 
(Sec. 3140). Although the current build plan of Interoperable Warhead 1 
(IW1) is the main driver for the current pit production requirements, 
any replacement life extension program for the W78 warhead could 
require similar, if not higher, production requirements.
    Mr. Garamendi. Previous Nuclear Posture Reviews, which are 
comprehensive, interagency reviews of our nuclear weapons policy, have 
often taken more than a year to complete. This administration plans to 
complete its Nuclear Posture Review in about 8 months. Should we take 
this to mean that the review is a forgone conclusion and that it will 
reaffirm the status quo? Why such a constrained timeline? Further, how 
will the lack of confirmed appointees at relevant offices and bureaus 
at the State Department (such as the Under Secretary for Arms Control 
and International Security, Bureau of Arms Control Verification and 
Compliance, Bureau of International Security and Nonproliferation) 
affect non-DOD input on the process?
    Dr. Soofer. The Nuclear Posture Review includes subject matter 
experts from across the government, including the Department of State. 
The effort is being overseen by the Secretary of Defense and will 
include a full and thorough assessment of our nuclear weapons policy to 
ensure that our nuclear deterrent is modern, robust, flexible, 
resilient, ready, and appropriately tailored to deter 21st century 
threats. If more study time is necessary we will extend the review to 
ensure we adequately meet the President's objectives.
    Mr. Garamendi. President Obama stated in 2013 that ``After a 
comprehensive review, I've determined that we can ensure the security 
of America and our allies--and maintain a strong and credible strategic 
deterrent--while reducing our deployed strategic nuclear weapons by up 
to one-third.'' Do you agree with that statement? Should the United 
States seek further reductions in coordination with Russia?
    Dr. Soofer. The President tasked the Department of Defense to 
review U.S. nuclear posture and ensure that our nuclear forces are 
modern, robust, flexible, resilient, ready, and appropriately tailored 
to deter 21st-century threats. The security environment has changed 
since President Obama's statement; I will not prejudge the outcome of 
the NPR and endorse this statement. If any future reductions are 
possible for the U.S., they should not be done unilaterally.
    Mr. Garamendi. Do you believe that it would be in the national 
security interests of the United States to pursue an extension of the 
treaty in 2021? Would you advocate for any modifications? What would 
the risk be of preventing negotiations to extend the New START Treaty 
as long as Russia is not in compliance with the INF Treaty?
    Dr. Soofer. It is too early to consider extending or modifying the 
New START Treaty. This year, we are focused on completing our force 
reductions under the Treaty and ensuring that Russia meets its 
obligations by February 2018 when the Treaty's central limits go into 
effect. Russia remains in compliance with the New START Treaty and the 
Treaty continues to provide predictability of and transparency into 
Russia's strategic forces. The President directed the Department of 
Defense to review U.S. nuclear posture and ensure that our nuclear 
forces are modern, robust, flexible, resilient, ready, and 
appropriately tailored to deter 21st-century threats.
    Mr. Garamendi. Dr. Soofer, do you believe it is within the ability 
of the Department of Defense to provide to Congress a 25-year cost 
estimate of DOD's portion of our nuclear deterrent, including 
operation, sustainment, and modernization?
    Dr. Soofer. In making these long-term cost projections, there are 
always legitimate questions about what to include, what timeframe to 
cover, and what level of uncertainty is reasonable to expect. At this 
time a reliable 25-year cost estimate for of the Departments of 
Defenses portion of our nuclear deterrent does not exist. However, the 
attached chart provides a cost estimate of operation, sustainment and 
modernization of our nuclear deterrent through 2040.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    .epsMr. Garamendi. Dr. Soofer, thank you for providing your 20-year 
cost estimate for DOD's nuclear modernization costs and for providing a 
clear and full explanation of which costs and programs are included. 
However, your cost estimate is provided in constant FY18 dollars, 
making comparisons with most other congressionally mandated nuclear 
cost estimates which use then-year dollars difficult. Please provide to 
the committee an updated version of this cost estimate using then-year 
dollars.
    Dr. Soofer. DOD expects nuclear recapitalization costs to total 
approximately $230-$290 billion spread over more than two decades, from 
fiscal year (FY) 2018 to FY 2040, in constant FY 2018 dollars. In then-
year dollars the range is adjusted to $280-$350 billion.
    Mr. Garamendi. There have been some changes to this year's funding 
requests for the LRSO and GBSD in comparison to the FY18 plans in last 
year's budget. GBSD was reduced by $78 million and LRSO was increased 
by $31 million. General Rand, can you briefly explain those changes?
    General Rand. The Ground Based Strategic Deterrent (GBSD) focus 
since the Milestone A decision has been on source selection related to 
the Technical Maturation Risk Reduction Contract Award we expect to be 
awarded in the 4th Quarter Fiscal Year 2017. Some planned activities 
were deferred due to the source selection activity. The program is 
currently funded to the Independent Cost Estimate.
    The $31 million adjustment to the Fiscal Year 2018 budget for Long 
Range Standoff Missile (LRSO) is in response to the updated cost 
estimate developed and approved during the Milestone A approval 
process. This updated estimate was approved after the Fiscal Year 2017 
President's Budget submission. The $451.3 million Fiscal Year 2018 
funds support technology maturation and risk reduction weapon 
development, test planning, and aircraft integration efforts.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
